<html>
<title> - S. 2285, S. 3234, S. 3261, AND H.R. 4685</title>
<body><pre>[Senate Hearing 114-538]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-538

                S. 2285, S. 3234, S. 3261, AND H.R. 4685

=======================================================================

                                 HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 7, 2016

                               __________

         Printed for the use of the Committee on Indian Affairs
         
         
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                     U.S. GOVERNMENT PUBLISHING OFFICE
23-557 PDF                 WASHINGTON : 2017                     
_______________________________________________________________________________________                     
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0463746b44677177706c6168742a676b692a">[email&#160;protected]</a>  
                     
                     
                     
                     
                     COMMITTEE ON INDIAN AFFAIRS

                    JOHN BARRASSO, Wyoming, Chairman
                   JON TESTER, Montana, Vice Chairman
JOHN McCAIN, Arizona                 MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska               TOM UDALL, New Mexico
JOHN HOEVEN, North Dakota            AL FRANKEN, Minnesota
JAMES LANKFORD, Oklahoma             BRIAN SCHATZ, Hawaii
STEVE DAINES, Montana                HEIDI HEITKAMP, North Dakota
MIKE CRAPO, Idaho
JERRY MORAN, Kansas
     T. Michael Andrews, Majority Staff Director and Chief Counsel
       Anthony Walters, Minority Staff Director and Chief Counsel
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 7, 2016................................     1
Statement of Senator Barrasso....................................     1
Statement of Senator Burr........................................     5
Statement of Senator Daines......................................     4
Statement of Senator Heitkamp....................................    31
Statement of Senator Hoeven......................................     5
Statement of Senator Tester......................................     2
Statement of Senator Udall.......................................     4

                               Witnesses

Andrews-Maltais, Cheryl, Senior Policy Advisor to the Acting 
  Assistant Secretary on Indian Affairs, U.S. Department of the 
  Interior.......................................................     7
    Prepared statement...........................................     9
Godwin, Jr., Hon. Harvey, Chairman, Lumbee Tribe of North 
  Carolina.......................................................    13
    Prepared statement...........................................    15
McDarment, Hon. Kenneth, Vice Chairman, Tule River Indian Tribe..    17
    Prepared statement...........................................    18
Watchman, Derrick, Chairman, National Center for American Indian 
  Enterprise Development.........................................    21
    Prepared statement...........................................    22

                                Appendix

McCaleb, Neal, Ambassador at Large, Chickasaw Nation, prepared 
  statement......................................................    39
Response to written questions submitted by Hon. Al Franken to 
  Derrick Watchman...............................................    46
Smith, Leonard, Executive Director, Native American Development 
  Corporation (NADC), prepared statement.........................    39
Snell, William, Executive Director, Rocky Mountain Tribal Leaders 
  Council, prepared statement....................................    42
United South and Eastern Tribes Sovereignty Protection Fund, 
  prepared statement.............................................    43

 
                S. 2285, S. 3234, S. 3261, AND H.R. 4685

                              ----------                              


                      WEDNESDAY, SEPTEMBER 7, 2016


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:50 p.m. in room 
628, Dirksen Senate Office Building, Hon. John Barrasso, 
Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    The Chairman. Good afternoon. I call this legislative 
hearing to order.
    Today the Committee will examine four bills: S. 2285, the 
Lumbee Recognition Act; S. 3234, the Indian Community Economic 
Enhancement Act of 2016; S. 3261, the Native American Business 
Incubators Program Act; and H.R. 4685, the Tule River Indian 
Reservation Land Trust, Health and Economic Development Act.
    The bill S. 2285, the Lumbee Recognition act, was 
introduced on November 7th, 2015, by Senator Burr. On June 7th, 
of 1956, Congress passed the Lumbee Act which designated 
certain Indians to be Lumbee Indians of North Carolina, but did 
not identify them as a federally-recognized tribe. The 1956 Act 
did not provide the Lumbee Indians eligibility for Federal 
services, which the United States provided to recognized Indian 
tribes because of their special status as an Indian tribe.
    Since the passage of that 1956 Act, Congressional actions 
have been sought to remove the prohibition from accessing 
Federal Indian programs. This Committee has held several 
hearings on the status of the Lumbee Indians during which 
differing views on prior legislation have been considered. We 
will now hear this bill address these views in light of the 
1956 Act. I will turn to Senator Burr in a moment, who has 
joined us today for any comments he would like to make.
    On July 14th of 2016, I introduced S. 3234, the Indian 
Community and Economic Enhancement Act of 2016, along with 
Senator McCain. During this Congress, the Committee held a 
series of hearings, roundtables and listening sessions to 
examine how to develop Indian communities' economies. Access to 
capital was one of the key challenges and public priorities 
identified, and the top priorities identified by Indian tribes, 
by business leaders and by entrepreneurs.
    This bill is intended to do three things: Increase access 
to capital for Indian tribes and businesses; to increase 
opportunities for Indian business promotion; and to create 
mechanisms and tools to attract business to Indian communities.
    Since the bill's introduction, my staff has been engaged in 
discussions with affected agencies, tribes, business 
organizations and business owners. We have received 
considerable positive feedback and look forward to addressing 
the recommendations received over the past recess as well as at 
today's hearing. This bill will assist Indian businesses and 
communities in developing sustainable economies and jobs.
    I look forward to moving this bill expeditiously through 
Congress.
    I also want to take a moment to thank Gary Davis, the 
outgoing President of the National Center for American Indian 
Enterprise, for the work he and the National Center have done 
on this bill and for Indian economies. Both he and Mr. Derrick 
Watchman, the Chairman of the National Center Board, who is 
testifying here today, have testified before this Committee. 
They have provided substantial input in support of this bill 
and the Indian Energy Act, S. 209.
    So I appreciate your work and ask that you, Mr. Watchman, 
will send the Committee's gratitude and best wishes to Gary in 
his new adventures. Thank you.
    On July 14th of 2016, Vice Chairman Tester introduced S. 
3261, the Native American Business Incubators Program Act, 
along with Senators Cantwell and Udall. This bill develops a 
program for physical workspaces, or incubators, to develop 
Native business and Native entrepreneurs.
    I will turn to Senator Tester in a moment to talk about his 
bill.
    On March 3rd, 2016, Representative McCarthy introduced H.R. 
4685, the Tule River Indian Reservation Land Trust, Health and 
Economic Development Act. This bill passed the House of 
Representatives on July 5th of this year. H.R. 4685 would take 
34 acres of Federal land located in Tulare County, California, 
and to trust for the benefit of the Tule River Indian Tribe.
    I would like to turn to Vice Chairman Tester at this point 
for any opening statement.

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Thank you, Mr. Chairman, for holding this 
hearing to consider important legislation for this Committee. A 
special welcome to Senator Burr, and appreciation for his 
leadership on Lumbee Recognition.
    One of the bills that we are going to hear today is S. 
3261, the Native American Business Incubators Program Act, 
which I introduced with my colleagues Senators Cantwell and 
Udall. This bill will help promote tribal economic development 
by investing in small business where it is needed, on the 
reservation. This Committee has heard from tribal leaders about 
many factors that prevent economic growth in tribal 
communities. They include a complicated regulatory environment 
unique to Indian Country, capacity issues and problems 
accessing capital, and attracting good business partners.
    These issues translate into fewer on-reservation 
businesses, fewer jobs in tribal communities, and Native youth 
having to leave home in search of opportunities elsewhere. This 
bill will help address these issues by providing resources to 
establish business incubators that serve Native entrepreneurs 
in tribal communities. Each business incubator will be a one-
stop shop that helps Native entrepreneurs navigate both typical 
obstacles of starting a business as well as those obstacles 
that make doing business in Indian Country unique.
    The bill would do this by ensuring that each incubator has 
quality staff members that are experts in conducting business 
in Indian Country. Additionally, it would require incubators to 
ensure Native entrepreneurs have access to resources necessary 
for the business to thrive, such as connected workspaces, 
business skills, training, mentorship opportunities and access 
to professional networks.
    S. 3261 would also ensure that incubator programs 
complement other resources available to tribes. The bill would 
require the Secretary of Interior to coordinate with heads of 
other Federal agencies, so each incubator is equipped to 
provide assistance to Native entrepreneurs that want to utilize 
Federal business development programs at those agencies.
    The bill also calls on the Secretary to set up a pipeline 
program between education institutions and business incubators 
to encourage entrepreneurship among Native youth.
    I also want to talk briefly about the Tribal Recognition, 
since we are also considering the Lumbee bill here today. As 
you all know, I introduced, along with Senator Daines as a co-
sponsor, the Little Shell Recognition Bill. This issue is very 
important to me and to Senator Daines. While I am interested in 
the discussion we are having today, I do hope that we can get 
the Little Shell Recognition Bill across the finish line.
    We don't always agree on a lot of things around here. But 
when there is bipartisan support for a bill like there is with 
the Little Shell, it would be great to get it done.
    Finally, I want to acknowledge Mr. Bill Snell for his great 
work with Native American communities with the Rocky Mountain 
Tribal Leaders Council. He was scheduled to testify before us 
today, but unfortunately due to an illness, had to cancel his 
trip and could not make it. He has submitted a statement, which 
I would ask unanimous consent be part of the record.
    With that, once again, thank you, Mr. Chairman. I look 
forward to hearing from the witnesses today.
    The Chairman. Thank you, and without objection, that full 
statement will be made part of the record.
    The Chairman. Any other members who would like to make an 
opening statement? Senator Daines.

                STATEMENT OF HON. STEVE DAINES, 
                   U.S. SENATOR FROM MONTANA

    Senator Daines. Thanks, Mr. Chairman. I want to start by 
wishing a warm welcome to Tafuna Tusi, Financial Management 
Officer of the Rocky Mountain Tribal Leaders Council who is 
here from Billings, Montana. It is good to see you here in 
D.C., Mr. Tusi.
    Montana is home to four Native Community Development 
Financial Institutions. I had the pleasure of joining one of 
them, the Native American Development Corporation, at the 
conference back home in Montana just last month. These 
organizations are key to increasing Native access to capital in 
our Native communities, and I am glad we are visiting ways to 
more effectively provide credit solutions in Indian Country.
    I would like to point out an example of success. So often 
around this table we seem to talk about failures. There is a 
success. The Crow Nation was the first tribe in the Country to 
enact the Model Tribal Secured Transaction Act, and was also 
the first to enter into a formal Uniform Commercial Code filing 
system agreement under a tribal transaction law. This historic 
compact is helping facilitate lending at economic development 
on the Crow Reservation there near Hardin, Montana.
    Congress, the Administration and tribes must continue 
working together so we can replicate that success on other 
reservations in Montana and across our entire Country. Enacting 
legislation that fosters the creation of these good, high-
paying jobs is absolutely key to Native nations' success and 
their long-term prosperity.
    I appreciate the work my colleagues have done on this, 
particularly Chairman Barrasso, as well as Vice Chairman 
Tester. They have gone before us, they brought this before us 
for consideration, and I look forward to today's discussion.
    Thanks, Mr. Chairman.
    The Chairman. Senator Udall?

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, Mr. Chairman.
    Good afternoon, Mr. Chairman and Vice Chairman. I am 
pleased to see that S. 3261, the Native American Business 
Incubators Program Act, is on today's legislative hearing. 
Spurring economic development in Indian Country is a critically 
important issue.
    According to the National Congress of American Indians, 39 
percent of Native Americans living on reservations are in 
poverty and the unemployment rate is 19 percent, more than 
three times the national average. It goes without saying that 
we need to do everything we can to improve opportunity for 
Indian Country. I am pleased to have joined Senators Tester and 
Cantwell in sponsoring S. 3261 to help establish and maintain 
business incubators to serve Native American communities. The 
bill will help Native American business owners navigate 
obstacles, cut through the red tape and get access to start-up 
funding. These important tools will help promising 
entrepreneurs get off on the right foot, so they can launch 
their businesses and stay in business.
    Thank you again. I look forward to hearing from the 
witnesses today.
    The Chairman. Thank you, Senator. Senator Hoeven?

                STATEMENT OF HON. JOHN HOEVEN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Hoeven. I am pleased to be here to discuss the 
merits of these bills, particularly S. 3234, which is the 
Indian Community Economic Enhancement Act and S. 3261, the 
Native American Business Incubators Program.
    In North Dakota, we have reservations with thousands of 
Native American-owned businesses that are pleased with what 
they are doing. They are encouraged and want to continue to 
promote further economic development efforts for these small 
businesses, which are vital to their communities and their 
reservations. So I very much look forward to hearing from this 
panel in regard to the legislation that we are proposing here, 
and also other ideas that you have to help small businesses on 
the reservation.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Hoeven.
    Before turning to Senator Burr, would any other members 
like to make an opening statement? If not, Senator Burr, 
welcome to the Committee.

                STATEMENT OF HON. RICHARD BURR, 
                U.S. SENATOR FROM NORTH CAROLINA

    Senator Burr. Mr. Chairman and Mr. Vice Chairman, thank 
you; thank you, colleagues for the Committee's time and for 
your efforts regarding Federal recognition for the Lumbee 
Tribe.
    I would also like to thank my North Carolina colleagues, 
Representatives Hudson and Butterfield, for their passion and 
dedication on this issue. Mr. Chairman, it is good to see the 
frugality of the Indian Affairs Committee. They have left my 
name tag over from when I served on the Committee, I think, 
unless you hunted this down somewhere.
    I would also like to thank Chairman Harvey Godwin. He was 
sworn in as chairman earlier this year, for traveling up from 
North Carolina for this hearing. I welcome him and his son, 
Quinn, who is here with him today, to Washington. Chairman 
Godwin brings with him over 20 years of business experience and 
a long history of public service to his community. He has been 
a proven leader in Robeson County. I know he will bring that 
same work ethic and integrity to the Lumbee Tribal Council and 
the Tribe.
    Mr. Chairman, for more than a century, the Lumbees have 
been recognized as an American Indian. North Carolina 
recognized the tribe in 1885 and the tribe began their quest 
for Federal recognition three years later, in 1888. The Lumbees 
are in a unique situation. They are the largest Indian tribe 
east of the Mississippi, with a membership of over 34,000. Yet, 
they have remained unrecognized for over a century.
    The Lumbee Act of 1956 designated the Indians designating 
in Robeson County and adjoining counties of North Carolina as 
the Lumbee Indians of North Carolina. That also inexplicably 
prevented the Lumbees from being eligible for any services 
provided by the Federal Government or any benefits that are 
provided to other tribes.
    While the Lumbee Act somewhat recognized the tribe, it was 
strictly conditional. This 1950s-era law specifically blocked 
Federal assistance to the Lumbee Tribe. It is nothing short of 
discrimination. And decades of discrimination against the 
Lumbees have resulted in severe economic and societal 
consequences for the Lumbee people.
    Robeson County is one of the ten poorest counties in the 
United States of America. The 1956 law has put them on an 
unequal footing, compared to other federally-recognized tribes. 
And it has prevented them from obtaining access to critical 
services through the Bureau of Indian Affairs and the Indian 
Health Service. This is simply unjust and immoral.
    When the Bureau of Indian Affairs established its process 
for formal recognition in 1970, the Lumbees were once again 
denied equal treatment and barred from participating, due to 
the 1956 Lumbee Act. They were denied a third time in 1989, 
when the Department of Interior determined that the Lumbee Act 
of 1956 prohibits the Tribe from going through the BIA process, 
and the only way for a tribe to obtain full Federal recognition 
would be by an act of Congress.
    Therein lies the reason I am before you today. The BIA's 
process is reserved for tribes whose legitimacy must be 
established. As we know, and when you hear from Chairman Godwin 
today, the Lumbees have established legitimacy time and time 
again. The Lumbees have been part of eastern North Carolina's 
history for centuries. Like Chairman Godwin, they serve their 
community effectively and tirelessly. They have been teachers, 
farmers, doctors, small business owners, lawyers. Some have 
served as sheriffs, clerks of court, State legislators and 
judges. Many have protected our Nation by serving in the United 
States armed forces. The contributions they have made to their 
local communities and the State of North Carolina have not gone 
unrecognized or unappreciated.
    The question I want the Committee to ask themselves today 
is, how can this federally-recognized tribe be denied the 
benefits that other federally-recognized tribes receive through 
their sovereignty? This tribe is not looking for a handout. But 
it is looking for a hand up. That hand up is full Federal 
recognition that will give them the additional tools needed to 
improve their economic situation in their county, in their 
health care system and in their schools.
    For those members that may not know historically, in 1956, 
the legislation dealt with five tribes. Today, only one of 
those five tribes has not, by an act of Congress, been 
federally recognized, and they are the Lumbee Indians. Congress 
has gone back and remedied four other tribes that were caught 
in the same congressional malaise, and they have by an act of 
Congress recognized these tribes. Only the Lumbees, only the 
Lumbees have been excluded from that Federal recognition.
    I am confident that after Chairman Godwin's testimony 
today, you will understand the injustice and discriminatory 
policies against the Lumbee Tribe. The Lumbee were put into 
this situation by Congress in 1956, and it is time we act and 
grant the Tribe their much-deserved full Federal recognition.
    I ask that you right this wrong for current and future 
generations of Lumbees. Mr. Chairman, I thank you for the 
privilege of speaking on an issue that is not only important to 
me, not only important to the Lumbees, but I think it should be 
important to us as members of Congress. It was an act of 
Congress that put them in the box that they are in. Four-fifths 
of that box has been fixed. One-fifth remains still to be 
fixed. And I do hope that this Committee will see it as their 
mission to right a wrong and to fix the fifth.
    I thank the Chairman.
    The Chairman. Thank you very much, Senator Burr.
    We will now hear from our witnesses. We have four. The 
first is Ms. Cheryl Andrews-Maltais, who is the Senior Policy 
Advisor to the Acting Assistant Secretary of Indian Affairs for 
the Department of Interior. We will also hear from the 
Honorable Harvey Godwin, Jr., who is the Chairman of the Lumbee 
Tribe of North Carolina; the Honorable Kenneth McDarment, Vice 
Chairman of the Tule River Indian Tribe, Porterville, 
California; and Mr. Derrick Watchman, who is the Chairman of 
the National Center for American Enterprise Development from 
Mesa, Arizona. I would ask that each of you try to limit your 
remarks to five minutes. We will make sure that your entire 
written testimony is made part of the official hearing record 
today. So if you could keep your remarks to five minutes, that 
will allow time for questioning.
    We look forward to hearing your testimony, beginning with 
Ms. Andrews-Maltais.

 STATEMENT OF CHERYL ANDREWS-MALTAIS, SENIOR POLICY ADVISOR TO 
               THE ACTING ASSISTANT SECRETARY ON 
       INDIAN AFFAIRS, U.S. DEPARTMENT OF THE INTERIOR; 
         ACCOMPANIED BY JACK STEVENS, ACTING DIRECTOR, 
        OFFICE OF INDIAN ENERGY AND ECONOMIC DEVELOPMENT

    Ms. Andrews-Maltais. Thank you, and good afternoon, 
Chairman Barrasso and members of the Committee. My name is 
Cheryl Andrews-Maltais, and I am a senior advisor to the 
Assistant Secretary on Indian Affairs in the Department of the 
Interior. I would like to thank you for the opportunity to 
provide the Department's statements on four bills today.
    The first bill is Senate Bill 2285, the Lumbee Recognition 
Act. We think it is important to restate that under the 
Constitution, Congress has the authority to recognize a 
distinctly Indian community as an Indian tribe. Federal 
acknowledgement enables Indian tribes to participate in Federal 
programs and establishes a government-to-government 
relationship between the United States and the Indian tribe, 
and recognizes certain legal rights under Federal law.
    We note that the authority to acknowledge an Indian tribe 
has been delegated to the Secretary of the Interior to act in 
appropriate cases. However, in this instance, we are barred by 
statute from recognizing the Lumbee Tribe, and we do note a few 
administrative concerns. However, the Department supports the 
bill, with amendments as discussed in our written testimony.
    Second is Senate Bill 3234, the Indian Community Economic 
Enhancement Act, a bill to amend the Native American Business 
Development, Trade Promotion and Tourism Act, the Buy Indian 
Act and the Indian Trader Act and the Native American Programs 
Act, which would provide industry and economic development 
opportunities to Indian communities. The Obama Administration 
has consistently supported avenues that foster and promote 
economic development in Indian Country. For far too long, 
Native communities have experienced disproportional barriers to 
opportunities for economic development. This bill seeks to 
improve economic conditions in Native communities by expanding 
capital for Native entrepreneurs, creating Native procurement 
opportunities and encouraging tourism as a revenue source.
    In reviewing this bill, the Department is pleased to see 
legislation that seeks to directly impact and foster economic 
development in Indian Country. We support these goals and offer 
a number of technical changes to improve the bill which are 
specifically noted in our written testimony.
    For example, Section 3 of the bill would change the Native 
American Business Development Trade Promotion and Tourism Act 
to expand the use of and funding for the Loan Guarantee, 
Insurance and Interest Subsidy Program created under the Indian 
Financing Act, and would offer increased resources for this 
program. In Section 4, the Buy Indian Act is an important 
component of the Department's goal of fostering and supporting 
American Indian and Alaska Native entrepreneurship by promoting 
the Federal procurement of goods and services from Native-owned 
businesses, thereby supporting economic development in Indian 
Country.
    One specific technical change to this section would be 
adding language that allows reporting of Buy Indian Act actions 
to include procurement via 8(a) whenever applicable. We also 
request the drafters consider adding a category that captures 
other Indian enterprises, as Indian Affairs does business with 
Indian enterprises that may not meet the specific requirements 
of the Act.
    Additionally, we believe the Buy Indian Act could work as a 
socioeconomic set-aside in the Small Business Administration. 
Established on a larger scale and applicable to other agencies 
beyond the Indian Health Service and the Department. Section 5 
of the bill amends the Indian Trader Act to include a provision 
granting the Secretary the authority to waive certain license 
requirements if the tribe has enacted tribal laws to govern its 
licensing, trade or commerce.
    Because tribes have a strong interest in creating a 
comprehensive tribal regulatory scheme to regulate trade and 
commerce on tribal lands, improving the Indian trader statutes 
by creating a contemporary, comprehensive framework regarding 
trade in Indian Country benefits everyone. The Department 
supports the goals and objectives of these bills and offers to 
continue to work with the Committee and tribes in developing 
legislation to meet the unique economic and employment needs of 
Indian Country.
    The Department also understands that other agencies within 
the Administration may have additional comments on this bill 
and would like to provide that to this Committee.
    Third, the Native American Business Incubators Act is a 
bill that would establish a business incubator program within 
the Department to promote economic development on Indian 
reservations and communities. The Department strongly supports 
this bill's purpose, which is to impart critical knowledge and 
provide technical assistance to entrepreneurs and start-up 
businesses in Indian Country. The department notes that Section 
4 contains very detailed and prescriptive requirements related 
to the establishment and administration of the program. We 
would like to work with the Committee to simplify these 
requirements to ensure the program can be flexibly implemented.
    To conclude, the Department supports this bill, S. 3261, 
and is committed to working with the Committee on helping to 
improve it.
    Lastly, we have House Rule 4685, the Tule River Reservation 
Land Trust, Health and Economic Development Act. This bill 
declares that approximately 34 acres of public land currently 
managed by BLM shall be held in trust for the benefit of the 
Tule River Indian Tribe. The Department of the Interior 
welcomes the opportunity to work with Congress on lands to be 
held in trust and supports the bill with minor technical edits 
as noted in our written testimony.
    Thank you very much, and I am available to answer any 
questions anyone may have.
    [The prepared statement of Ms. Andrews-Maltais follows:]

Prepared Statement of Cheryl Andrews-Maltais, Senior Policy Advisor to 
 the Acting Assistant Secretary on Indian Affairs, U.S. Department of 
                              the Interior
                               h.r. 4685
    Thank you for the opportunity to testify on H.R. 4685, which 
declares that approximately 34 acres located in Tulare County, 
California, shall be held in trust for the benefit of the Tule River 
Indian Tribe. The Department of the Interior welcomes opportunities to 
work with Congress on lands to be held in trust and supports H.R. 4685, 
if amended to address concerns noted below.
Background
    The Tule River Indian Tribe (Tribe) is a federally recognized 
Indian tribe that resides on the Tule River Indian Reservation 
(Reservation). The Reservation was initially set aside in 1873, and 
currently comprises approximately 54,000 acres of rugged foothill lands 
of the Sierra Nevada Mountains in south central California. The lands 
proposed to be held in trust for the Tribe under the bill are 
immediately west of the Reservation and are adjacent to fee lands owned 
by the Tribe. This isolated parcel has been used mainly for tribal 
grazing land. The Tribe is constructing a waste water treatment 
facility on the fee lands.
H.R. 4685
    H.R. 4685 declares that approximately 34 acres of public land 
currently managed by the BLM shall be held by the United States in 
trust for the Tribe, subject to valid existing rights and management 
agreements related to easements and rights-of-way (including pending 
ROW applications). Under the bill, the Secretary of the Interior would 
be required to verify valid existing rights by notifying anyone 
claiming a management agreement, easement, or other right-of-way, that 
the lands are now held in trust. Upon this notification, any parties 
claiming such rights would have 60 days to submit an application to the 
Secretary requesting that the valid existing rights be converted to a 
long-term easement or other right-of-way. After submission, the 
Secretary would be required to grant or deny the application within 180 
days; if the Secretary has not acted within this time period, the 
application would be automatically granted.
    Currently, the lands proposed to be held in trust contain two 
rights-of-way authorizations in place for roads and water pipelines, 
both for the benefit of the Tule River Tribe, and one right-of-way 
authorization for power lines to the reservation held by Southern 
California Edison. Based on a review of aerial imagery, a house may 
straddle the boundary between the reservation and public land; a survey 
would be required to determine exact location, and if further action is 
needed to resolve boundary. There are no other BLM authorizations, such 
as easements and leases, on the property, and no mining claims or other 
encumbrances are known to exist.
    The Department supports placing the 34-acre parcel into trust 
status for the Tribe, and we would like the opportunity to work with 
the sponsor and Committee on language clarifying the Department of the 
Interior's responsibilities regarding any improvements, appurtenances, 
and personal property that may be transferred along with the lands. The 
Department believes that this clarification is necessary to address 
concerns about the Federal government having a fiduciary obligation to 
repair and maintain any acquired improvements. Also, the claimed valid 
existing rights verification process outlined in Section 2(d) appears 
to establish an additional, unneeded forum for the resolution of such 
claims. Generally, valid existing rights on lands held in trust 
continue in effect until the end of the term, at which time the BIA may 
negotiate any new or renewed authorizations.
Conclusion
    The Department of the Interior welcomes opportunities to work with 
Congress and tribes on holding lands in trust. We support the intent of 
the legislation and look forward to working with the sponsor and the 
Committee to address the issues we have outlined in this testimony.

                                s. 2285
    Chairman Barrasso, Vice-Chairman Tester and members of the 
Committee, my name is Cheryl Andrews-Maltais, Senior Policy Advisor to 
the Assistant Secretary--Indian Affairs at the Department of the 
Interior (Department). Thank you for the opportunity to provide the 
Administration's testimony on S. 2285, the ``Lumbee Recognition Act.''
    The acknowledgment of the continued existence of another sovereign 
is one of the most important responsibilities of the United States. 
Under the Constitution, Congress has the authority to recognize a 
``distinctly Indian community'' as an Indian tribe. Federal 
acknowledgment enables Indian tribes to participate in Federal programs 
and establishes a government-to-government relationship between the 
United States and the Indian tribe, and recognizes certain legal rights 
under Federal law. We note that the authority to acknowledge an Indian 
tribe has been delegated to the Secretary of the Interior to act in 
appropriate cases. In this instance, we are barred by statute from 
recognizing the Lumbee Tribe. We support S. 2285, with amendments as 
discussed below.
S. 2285, the ``Lumbee Recognition Act''
    In 1956, Congress designated Indians then ``residing in Robeson and 
adjoining counties of North Carolina'' as the ``Lumbee Indians of North 
Carolina'' in the Act of June 7, 1956 (70 Stat. 254). Congress went on 
to note the following:

        Nothing in this Act shall make such Indians eligible for any 
        services performed by the United States for Indians because of 
        their status as Indians, and none of the statutes of the United 
        States which affect Indians because of their status as Indians 
        shall be applicable to the Lumbee Indians.

    In 1989, the Department's Office of the Solicitor advised that the 
1956 Act forbade the Federal relationship within the meaning of the 
acknowledgment regulations, and that the Lumbee Indians were therefore 
precluded from consideration for Federal acknowledgment under the 
administrative process. Because of the 1956 Act, the Lumbee Indians 
have been unable to seek Federal acknowledgment through the 
Department's administrative process.
    Given that Congress specifically addressed the Lumbee Indians in 
the 1956 Act, which Interior interpreted as barring the Department from 
undertaking an acknowledgment review, only Congress may take up the 
matter of Federal recognition for the Lumbee Indians.
    S. 2285 extends Federal recognition to the ``Lumbee Tribe of North 
Carolina'' and permits any other group of Indians in Robeson and 
adjoining counties whose members are not enrolled in the Lumbee Tribe 
to petition under the Department's acknowledgment regulations. Before 
2015, the Department's Office of Federal Acknowledgment received 
letters of intent to petition from multiple groups including the Lumbee 
Tribe named in this bill whose claims and memberships may overlap. 
Therefore, we recommend Congress clarify the Lumbee group that would be 
granted recognition under this bill based on the group's current 
governing document which includes clear enrollment requirements and 
procedures and its current membership list. Not doing so could 
potentially expose the Federal Government to unwarranted lawsuits and 
possibly delay the Department's acknowledgment process for the other 
groups not enrolled in the Lumbee Tribe.
    Under S. 2285, the State of North Carolina has jurisdiction over 
criminal and civil offenses and actions on lands within North Carolina 
owned by or held in trust for the Lumbee Tribe or ``any dependent 
Indian community of the Tribe.'' Additionally, the Secretary of the 
Interior is authorized to accept a transfer of jurisdiction over the 
Lumbee Tribe from the State of North Carolina, after consulting with 
the Attorney General of the United States and pursuant to an agreement 
between the Lumbee Tribe and the State of North Carolina. Such transfer 
may not take effect until two years after the effective date of such 
agreement.
    We are concerned with the provision requiring the Secretary, within 
two years, to verify the tribal membership and then to develop a 
determination of needs and budget to provide Federal services to the 
Lumbee group's eligible members. In our experience, verifying a tribal 
roll is an extremely involved and complex undertaking that can take 
several years to resolve. Moreover, S. 2285 is silent as to the meaning 
of verification for inclusion on the Lumbee group's membership list. 
The Act should define who bears the burden of proof, the standards and 
procedures for evaluating acceptable generation-by-generation descent 
evidence, and appeals processes.
    In addition, section 5(c) of S. 2285 may raise a problem by 
purporting to require the Secretary of the Interior and the Secretary 
of Health and Human Services to submit to the Congress a written 
statement of a determination of needs for the Lumbee Tribe for 
programs, services and benefits to the Lumbee Tribe. The appropriate 
means for communicating to Congress a determination of needs for 
programs administered by the Department of the Interior and the 
Department of Health and Human Services is the President's Budget.
Conclusion
    Thank you for providing the Department the opportunity to prove 
input into S. 2285. The Department supports S. 2285 with amendments. I 
am available to answer any questions the Committee may have.

                                s. 3234
    Chairman Barrasso, Vice-Chairman Tester, and members of the 
Committee, my name is Cheryl Andrews-Maltais, and I am the Senior 
Advisor to the Assistant Secretary for Indian Affairs at the Department 
of the Interior (Department). Thank you for the opportunity to provide 
testimony before this Committee on S. 3234, the Indian Community 
Economic Enhancement Act of 2016, a bill to amend the Native American 
Business Development, Trade Promotion, and Tourism Act of 2000, the Buy 
Indian Act, the Indian Trader Act, and the Native American Programs Act 
of 1974 to provide industry and economic development opportunities to 
Indian communities.
    During the Obama Administration we have consistently supported 
avenues that foster and promote economic development in Indian Country. 
For too long, Native communities have experienced disproportional 
barriers to economic development. Economic development is critical for 
building capacity in Indian Country in other areas such as law 
enforcement, health, education, natural resource management, and 
infrastructure. Even in good economic times, the unemployment rate in 
these communities and villages is double the national average. As 
antidotes to these conditions, our Department offers access to capital, 
technical assistance for Native entrepreneurs and business start-ups, 
guidance on developing the legal infrastructure necessary for economic 
progress, and expert assistance in the development of commercially 
valuable minerals and conventional and renewable energy resources. In 
reviewing S. 3234, the Department is pleased to see legislation that 
seeks to directly impact and foster economic development in Indian 
Country.
    We support the goals of S. 3234.
    S. 3234 seeks to improve economic conditions in Native communities 
by expanding capital for Native enterprises, creating Native 
procurement opportunities, and encouraging tourism as a revenue source. 
Currently, our Department's Office of Indian Energy and Economic 
Development (IEED), which carries out much of the work addressed by the 
bill, works to foster stronger American Indian and Alaska Native 
economies. The Division of Capital Investment (DCI) within IEED 
facilitates access to capital for Indian-owned businesses. In FY 15, 
the Program was able to guarantee $99.8 million in loans to Indian 
Country from an appropriation of $6.7 million. Since 1992, the Program 
has encouraged well over $1.4 billion in Indian business lending that 
would not otherwise have occurred.
    Section 3 of S. 3234 would change the Native American Business 
Development, Trade Promotion, and Tourism Act of 2000 to expand use of 
and funding for the Loan Guarantee, Insurance and Interest Subsidy 
Program created under section 201 of the Indian Financing Act of 1974 
(25 U.S.C. 1481). S. 3234 would offer an increase in resources for this 
program. We suggest a number of technical changes to improve S. 3234:

  <bullet> In Section 8 the bill refers to the ``the loan guarantee 
        program of the Bureau of Indian Affairs.'' This should be 
        changed to ``the Indian Loan Guarantee, Insurance and Interest 
        Subsidy Program.'' (ILGIISP)

  <bullet> The bill should also be amended to clarify how the 
        additional credit subsidy would be made available pursuant to 
        the Federal Credit Reform Act of 1990, or how the bill would 
        affect procedures developed by the Office of Management and 
        Budget, the Department of the Treasury, and our Department to 
        assure transparent use of funds.

    S. 3234, Section 4 the ``Buy Indian Act'' is an important component 
of the Department's goal of fostering and supporting American Indian/
Alaska Native entrepreneurship. The Buy-Indian Act promotes the federal 
procurement of goods and services from American Indian- and Alaska 
Native-owned businesses, thereby supporting economic development in 
Indian Country. The Bureau of Indian Affairs has obtained services and 
supplies from Indian sources using the Buy Indian Program since 1965, 
based on policy memoranda and acquisition. In 2013, we finalized the 
first rule to implement the Buy Indian Act within the Department.
    Section 4 of S. 3234 concerns the Buy Indian Act. We recommend a 
number of technical changes to these provisions, such as adding 
language that allows reporting of Buy Indian Act actions in procurement 
via 8(a), when applicable. It would also be helpful to scale down the 
reports to reflect summary data only and to include only those set-
aside contracts that deviate from this policy. The bill's authors might 
want to consider adding a category that captures ``Other Indian 
Enterprise,'' as Indian Affairs does business with Indian Enterprises 
that may not meet the requirements of Buy Indian Act. Furthermore, we 
believe the Buy Indian Act could work as a socio-economic set-aside in 
SBA, whereby the goals can be established on a larger scale and 
applicable to agencies beyond Indian Health Service and the Department. 
Finally, we recommend adding language to the reporting requirement to 
include ``action'' along with ``acquisition.''
    Section 5 of the bill amends the Indian Trader Act of 1876 to 
include a provision granting the Secretary the authority to waive any 
applicable licensing requirements if a tribe has enacted tribal laws to 
govern licensing, trade, or commerce. Passed in 1876 and 1901, 
respectively, the Indian Trader Statues are still vitally important but 
could be improved to reflect the current policies of Tribal self-
determination and self-governance. Tribes have a strong interest in 
comprehensive tribal regulatory schemes regulating trade on tribal 
lands. There remains a strong Federal and Tribal interest in a 
comprehensive framework regarding trade occurring in Indian Country. 
The Department supports section 5 and offers to work with the Committee 
and tribes in developing legislation to modernize the Indian Trader 
Statutes to meet the needs of Indian country.
    We understand that other agencies within the Administration may 
have additional comments on the bill.
    Conclusion Thank you for providing the Department the opportunity 
to prove input into S. 3234. I am available to answer any questions the 
Committee may have.

                                s. 3261
    Chairman Barrasso, Vice-Chairman Tester, and members of the 
Committee, my name is Cheryl Andrews-Maltais. I am the Senior Policy 
Advisor to the Assistant Secretary--Indian Affairs at the Department of 
the Interior (Department). Thank you for the opportunity to provide 
testimony before this Committee on S.3261, the Native American Business 
Incubators Act, a bill to establish a business incubators program 
within the Department of the Interior to promote economic development 
in Indian reservation communities. The Department supports S. 3261.
    S. 3261 would establish a program in the Office of Indian Energy 
and Economic Development under which the Secretary would provide 
financial assistance in the form of competitive grants to eligible 
applicants for the establishment and operation of business incubators 
that serve reservation communities by providing business incubation and 
other business services to Native businesses and Native entrepreneurs. 
Eligible applicants would include Indian tribes, a tribal college or 
university, an institution of higher education, and a private, non-
profit organization or a tribal non-profit organization that could 
provide services to Native businesses and Native entrepreneurs. The 
bill allows for joint projects and sets forth application and selection 
processes and requirements. Section 5 provides for the Secretary to 
promulgate regulations to implement the program. Section 6 would 
facilitate the establishment of relationships between eligible 
applicants and educational institutions serving Native American 
communities. The Secretary would also coordinate with the Secretaries 
of Agriculture, Commerce Treasury and the Administrator of the Small 
Business Administration.
    The Department strongly supports this bill's purpose, which is to 
impart critical business knowledge and provide technical assistance to 
entrepreneurs and start-up enterprises in American Indian and Alaska 
Native (AI/AN) communities. Should S. 3261 be enacted, the Department 
would evaluate the incubator grant proposals, disburse grant funding, 
and provide the on-site audits and monitoring of incubators described 
in the bill.
    We note that section 4 of S. 3261 contains very detailed and 
prescriptive requirements related to establishment of the program, the 
application and selection process, and the evaluation process. We would 
like to work with the Committee to simplify these requirements to 
ensure that the program can be flexibly implemented. The Department is 
committed to working with the Committee to improve S. 3261.
    Currently, Indian Affairs' Office of Energy and Economic 
Development prepares and publishes online technical assistance primers 
for use by Native entrepreneurs on topics such as ``Choosing a Tribal 
Business Structure,'' ``Making an Effective Business Presentation,'' 
``Financing a Tribal or Native Owned Business,'' and ``Procurement 
Opportunities for Native Americans,'' among others. S. 3261 strengthens 
this work by facilitating on the ground technical assistance to Native 
entrepreneurs.
    There are structural barriers to economic development that are 
unique to Indian Country which both prevent interested entrepreneurs 
from coming forward and existing ones from being successful. First, 
Native entrepreneurs lack access to capital. Eighty-six percent of 
tribal lands do not have a bank and 15 percent of AI/AN live 100 miles 
or more from a bank. Of financial institutions on or near AI/AN 
communities, only 33 percent offer start-up loans, 29 percent offer 
small business loans, and just 26 percent offer micro business loans. 
\1\ Too many Native American communities are in poverty because of the 
unavailability of hands-on technical training centers for Native 
American business men and women to build and sustain businesses. 
Second, small businesses are not yet creating enough employment 
opportunities in Native communities. \2\ Right now, only 13 percent of 
AI/AN entrepreneurs have entrepreneur parents, compared to 75 percent 
in the general population. \3\ The incubators envisioned in S. 3261 
would address the dearth of Native entrepreneurs and small businesses 
by providing critical know-how to aspiring entrepreneurs.
---------------------------------------------------------------------------
    \1\ Drew Tulchin and Jessica Shortall, ``Small Business Incubation 
and Its Prospects in Indian Country,'' Social Enterprise Associates, 
December 2008, p. 1.
    \2\ According to the U.S. Small Business Administration, small 
businesses account for two-thirds of new jobs. See, Brookings Policy 
Brief Series #175, ``The Future of Small Business Entrepreneurship: 
Jobs Generator for the U.S. Economy,'' May 10, 2012.
    \3\ Ibid., Tulchin and Shortall, p. 2.
---------------------------------------------------------------------------
Conclusion
    Thank you for the Department the opportunity to provide testimony 
on S. 3261. The Department supports S. 3261. I am available to answer 
any questions the Committee may have.

    The Chairman. Thank you very much for your testimony.
    Now, Chairman Godwin.

STATEMENT OF HON. HARVEY GODWIN, JR., CHAIRMAN, LUMBEE TRIBE OF 
                         NORTH CAROLINA

    Mr. Godwin. Good afternoon, Chairman Barrasso, Vice 
Chairman Tester and members of the Committee on Indian Affairs. 
My name is Harvey Godwin, Jr., and I proudly serve as Chairman 
of the Lumbee Tribe of North Carolina.
    It is my honor and privilege to address you this afternoon 
regarding Senate Bill 2285, an act to provide for full 
recognition to the Lumbee Tribe. I would like to give a special 
thank you to Senator Richard Burr for sponsoring this 
legislation. We greatly appreciate his efforts and this 
opportunity.
    The Lumbee have sought full federal recognition for 128 
years. As I come before you today, I can't help but think of my 
great-grandfather, Quinny Godwin, one of the original 
petitioners for Lumbee Federal Recognition in 1888. Could those 
petitioners have conceived their great-grandchildren would 
still be involved in this same pursuit of justice?
    As part of our pursuit of recognition, we have endured an 
array of research, pseudo-scientific studies and even 
congressional legislation, that while recognizing the existence 
of our Indian community has ultimately resulted in the 
political and legal marginalization of our people. With an 
ever-diminishing regional economy, the Lumbee people currently 
suffer high levels of unemployment, resulting in low 
socioeconomic status and significant health-related issues.
    Since 1990, over 12,000 jobs have been lost within our 
territory. Robeson County, the home of our tribal government, 
has the highest county-level poverty rate in the State, and is 
rated one of the top ten poorest counties in the Nation, with 
one in three residents living in abject poverty. Approximately 
34 percent of children in Robeson County live in food-insecure 
homes, placing our county 10 percent higher than the North 
Carolina average. American Indian children in Robeson County 
experience food insecurity at almost double the rate of Robeson 
County as a whole.
    Despite all of our setbacks, our leaders continue to 
advocate for self-determination amongst our people, through the 
creation of Indian schools, churches and civic organizations. 
We work to establish ourselves as contributing members of our 
local and regional communities. We regularly engage with other 
Native nations through institutions such as the National 
Congress of American Indians.
    In 1990, we adopted our first formal constitution. We are 
committed to good governance, for our people, by our people. We 
recently instituted a number of critical reforms to ensure 
greater transparency and efficiency for the benefit of our 
people. My election was a mandate from our citizens to re-
establish core Lumbee values. Number one, belief in God, 
cultural preservation and emphasis on education and protecting 
our connection to the land.
    Our homeland is fortunate to have proximity to major 
industry to interstate trade routes, viable infrastructure and 
educational venues, all of which are primary ingredients for 
sustainable economic development. Federal recognition would 
help us to leverage these existing assets. For instance, we 
have a recognized natural resource in the Lumbee River, and it 
holds tremendous opportunity for recreational business 
development and cultural tourism.
    The provision of health care to tropical members would not 
only be a boost to the well-being of our people, it would also 
reduce our dependence on Medicaid and create more health care 
jobs in the area as access to health care improves. Recognition 
would help us build on existing momentum, as we recently 
received tribal a tribal 8(A) certification administered by the 
Small Business Administration.
    Although we participate in some Federal programs, such as 
the Workforce Innovation and Opportunity Act, access to the 
full range of programs as a federally-recognized tribe would 
allow us to grow our efforts, promoting workforce development, 
education and entrepreneurship.
    In conclusion, the Lumbee people are seeking a new type of 
partnership with the Federal Government. We will use full 
Federal recognition to create an atmosphere for economic 
development in rural southeastern North Carolina. Your support 
of this bill is a strategic investment in the Lumbee people and 
our neighbors. It will become an example of how bringing 
justice also empowered our tribe to develop a sovereign, self-
determined, broad-based economy that will improve our quality 
of life and that of the region in which we reside.
    On behalf of the Lumbee Tribe, I thank you for this 
opportunity. I will entertain any questions that you may have.
    [The prepared statement of Mr. Godwin follows:]

 Prepared Statement of Hon. Harvey Godwin, Jr., Chairman, Lumbee Tribe 
                           of North Carolina
    Good Afternoon Chairman Barrasso, Vice Chairman Tester, and members 
of the Committee on Indian Affairs. My name is Harvey Godwin, Jr. and I 
proudly serve as Chairman of the Lumbee Tribe of North Carolina. It is 
my honor and privilege to address you this afternoon regarding Senate 
Bill 2285, a Bill to provide for the recognition of the Lumbee Tribe of 
North Carolina. I would like to give a special thank you to Sen. 
Richard Burr for sponsoring this legislation. He has proven to be a 
champion of the Lumbee people, and we greatly appreciate his efforts to 
bring us here today.
    The Lumbee Tribe of North Carolina represents approximately 35,000 
enrolled members. Our tribal territory has traditionally consisted of 
Robeson, Scotland, Hoke, and Cumberland counties. North Carolina 
recognized the Lumbee's status as an Indian tribe in 1885. The Lumbee 
began their fight for federal recognition in 1888 by petitioning the 
Federal Government for educational aid to support the Croatan Indian 
Normal School.
    After successfully establishing what is now the University of North 
Carolina at Pembroke, historically the Nation's first American Indian 
university institution, tribal leaders then sought assistance, 
resources, and tools from the government so that they might, through 
hard work and self-determination, build a better and more prosperous 
life for their members.
    The Lumbee have respectfully and patiently sought federal 
recognition for 128 years. During this pursuit, we have endured an 
array of research, pseudoscientific studies, and even congressional 
legislation that has ultimately resulted in the marginalization of our 
people. As a result of this and an ever-diminishing regional economy, 
the Lumbee people currently endure high levels of unemployment 
resulting in low socio-economic status, low educational attainment, and 
significant health-related issues. Since 1990, over 12,000 jobs were 
lost within the tribal territory. Manufacturing has all but evaporated. 
Farming, once the life-blood of our people, is not at all what it used 
to be. Robeson County, the seat of our tribal government, has the 
highest county-level poverty rate in the state and is one of the top 
ten poorest counties in the nation, with 1 in 3 residents living in 
abject poverty. \1\ Lumbee Indians make up 39.9 percent of the 
population of Robeson County. \2\ Approximately 34 percent of children 
in Robeson County live in food insecure homes, without even the most 
basic needs, placing our county 10 percent higher that the North 
Carolina state average. American Indian children in Robeson County 
experience food insecurity at almost double the county rate.
---------------------------------------------------------------------------
    \1\ http://pulse.ncpolicywatch.org/2014/01/11/north-carolinas-
counties-remain-in-povertys-tight-grip/
    \2\ http://www.census.gov/quickfacts/table/RHI125215/37155
---------------------------------------------------------------------------
    Without the benefits afforded to fully recognized tribes, our 
efforts have focused on developing a strong tradition of self-
governance to try to combat the socio-economic afflictions we face. We 
developed a tribal government committed to the Rule of Law and governed 
by a Constitution crafted for our people by our people. There are three 
branches of government: the Legislative, a 21 member tribal council, 
comprised of representatives from 21 districts; the Executive: a 
Chairman elected by the membership; and the Judiciary to hear disputes 
arising out of our tribal law.
    Our formalized government is young and like any other government 
there have been bumps and growing pains as we have found our way. 
Recently, however, there have been a number of governmental reforms 
instituted to ensure that there is greater transparency and efficiency 
for the benefit of our people. My own election represented a mandate 
from our tribal members to take back our government and reestablish our 
core Lumbee values: Belief in God, preserving our unique culture, the 
importance of education, and our connection to the land.
    The Lumbee Tribal Government today views federal recognition as an 
opportunity to create a solid economic foundation that will ensure a 
better future for the next seven Generations of our People. Federal 
recognition is a vehicle for empowering our communities rather than an 
end-all-be-all for our problems. We do not seek recognition as an 
entitlement fostering dependency on the Federal Government rather we 
seek resources to help us cross the bridge towards prosperity that we 
have been seeking for these many years. To us, recognition is a tool 
that will greatly aide our current endeavors to create sustainable 
economic development for the Lumbee and the poor rural areas of 
Southeastern North Carolina that we occupy. Through federal programs 
such as the WIOA, we will implement programs promoting workforce 
development, giving our members the skills they need to find their own 
success, as opposed to merely relying on support from the tribal 
government. The national conversation is always focused on the American 
Dream. The American Dream is and always has been the Lumbee Dream. 
Provide people the tools necessary and the opportunities and they will 
excel and create a better life for themselves and the seven generations 
that come after them.
    Our home area is fortunate to have proximity to major interstate 
trade routes, viable infrastructure and educational venues, all of 
which are primary ingredients for sustainable business/industry 
development. It is our desire to utilize federal recognition as a tool 
to leverage these existing assets, guided by tribal leadership that is 
focused on the will of the People. We envision the Lumbee Tribe 
assisting tribal members in developing business ventures based on our 
cultural and natural resources. For instance, we have a recognized 
natural resource in the Lumber River that holds tremendous opportunity 
for recreational business development. Our own Cultural Center has 
significant potential for cultural and recreational tourism, and is the 
site of our planned Tribal Community Garden. Endeavors such these could 
employ not only tribal members, but others in the area that are in 
pursuit of opportunity, thereby enriching the entire area.
    The Lumbee are known for our entrepreneurial spirit. Just this 
year, the Lumbee Tribe of North Carolina along with the University of 
North Carolina at Pembroke and the North Carolina Military Business 
Center hosted the first annual Lumbee Nation Economic Summit. Federal 
recognition will allow the Tribe to assist entrepreneurial development, 
help members with attaining necessary banking/lending support, and 
promoting the economic development partnerships created by federal 
recognition. Additionally, the provision of adequate healthcare for 
tribal members would be a boost to the health and well being of our 
people. Establishing an economic engine that will create more 
healthcare jobs for our people and reduce dependence on such things as 
Medicaid. We have obtained Tribal 8A Certification administered by the 
Small Business Administration. As a state recognized tribe, our 
corporations are eligible for some government contracts but until we 
gain full federal recognition, we cannot fully claim our seat at that 
table. Full federal recognition will make the Lumbee eligible for 
grants through the USDA and other federal governmental agencies, 
programs that we are ineligible to participate in now because of our 
status as non-federally recognized tribe. There are a number of Lumbee 
Indians who currently employed by the Federal Government; because they 
are not members of a federally recognized tribe they are ineligible for 
Indian Preference when applying for jobs and promotions within our 
government.
    The Lumbee's unique legal status was created through congressional 
action and should be rectified by congressional action. The Lumbee Act 
of 56 acknowledged that the Lumbee were in fact an Indian tribe. 
However language was added to the Lumbee Act, denying our people 
federal benefits. Congress's action in 1956 placed the Lumbee in a 
quasi status, acknowledged as Indian tribe but denied the federal 
benefits that are associated with that recognition. It is important to 
understand that during this period of our country's history Congress's 
policy toward all Indian tribes was termination. History shows us that 
Congress's views on American Indians and Indian policy evolved. They 
repealed all legislation that was interpreted as termination from this 
era EXCEPT for the Lumbee Act. In fact, there is one other tribe who 
has suffered from the same quasi status as the Lumbee, The Tiwa of 
Texas. Congress passed legislation in 1968 that recognized the Tiwa 
Indians of Ysleta, Texas and included the same language that denied 
benefits, that was a part of the Lumbee Act. Congress rectified this in 
1987, passing legislation that restored the federal trust relationship 
with the Tiwa and provided federal Indian services for the tribe.
    The Department of the Interior has created a process for 
acknowledging American Indian Tribes. This process is not an option for 
the Lumbee Tribe of North Carolina. In 1989, the Department of the 
Interior released an opinion from the Associate Solicitor regarding the 
1956 Lumbee Act. The opinion advised the Department of the Interior 
that the Lumbee were ineligible to complete the BIA process because of 
the language of the Lumbee Act.
    In recent hearings the Department of the Interior has gone on 
record a number of times supporting Congressional Legislation to 
restore full federal recognition to the Lumbee Tribe. During a 2009 
hearing before the House Natural Resource Committee, Assistant 
Secretary for Policy and Economic Development for Indian Affairs for 
the Department of Interior George Skibine advocated for congressional 
action for the Lumbee. Assistant Secretary Skibine said ``. . .there 
are rare circumstances when Congress should intervene and recognize a 
tribal group, and the case of the Lumbee Indians is one such rare 
case.'' In 2013, Assistant Secretary for Indian Affairs, Kevin Washburn 
testified before this very committee saying ``Given that it is Congress 
that has specifically addressed the Lumbee Indians on a previous 
occasion and has barred Interior from undertaking this review, only 
Congress can take up the matter of federal recognition for the Lumbee 
Indians''. Congress placed the Lumbee Tribe in legal limbo with the 
Lumbee Act of 56 and only Congress can remove this status and restore 
the Lumbee to full federal recognition.
    I want to reiterate that the Lumbee people are seeking a new type 
of partnership with the Federal Government. We will use federal 
recognition to help create an atmosphere for economic development in 
rural North Carolina, thereby bolstering the American Middle Class. 
Your support of this bill is a strategic investment in the Lumbee 
people and the country as a whole. It will become a new reference point 
for how to allow American Indians to truly develop sovereign, self-
determined, broad-based economies that will improve the lives of all.
    I would like to end my testimony by emphasizing the importance of 
the circle in indigenous cultures. The circle is important in all 
Native cultures, and especially so in the Lumbee Tribe. The circle 
shows our connection with each other, with our past, our present, and 
our future, representing the 7 Generations. I cannot help but feel the 
significance of that connection today as I come before you asking for 
your support in empowering my people, in much the same way as my Great 
Grand Father Quinny Godwin did as one of the original petitioners of 
Lumbee federal recognition in 1888. I am blessed that things have come 
full circle today and like my great-grandfather before me, I am asking 
this Committee to do the same. My greatest hope is that my great-
grandchildren will not have to fight this battle three generations from 
now.
    On behalf of the Lumbee Tribe, thank you for the opportunity to 
address this Committee.

    The Chairman. Thank you very much, Chairman Godwin. I 
appreciate your being here. I appreciate you, Senator Burr, 
staying for the entirety of the testimony. Thank you.
    Vice Chairman McDarment, please proceed.

STATEMENT OF HON. KENNETH McDARMENT, VICE CHAIRMAN, TULE RIVER 
                          INDIAN TRIBE

    Mr. McDarment. Good afternoon, Chairman John Barrasso, Vice 
Chairman Jon Tester, fellow members of the Committee. My name 
is Kenneth McDarment. I serve as Vice Chairman of the Tule 
River Tribe. I am a graduate of Porterville High School, in 
Porterville, California, class of 1992. After graduating, I 
worked in the oil fields and then on to trade school. 
Currently, I am serving my second term on the Tule Tribal 
Council. I am married, with four children. I humbly serve my 
community as a tribal leader, father, husband, rancher.
    I come before you today to respectfully request support of 
the United States Government in securing land for the Tule 
River Reservation. I send greetings and best wishes from all 
the members of the Tribal Council.
    The Tule River Tribe of California considers land within 
our aboriginal territory very important. In H.R. 4685, we are 
taking about 34 acres. Although this may not seem like a lot of 
land, every acre of land is important to our tribe. We have 
lived in California for thousands of years and the land and our 
language have been an integral part of our culture. It is 
important for us to be able to control this particular parcel 
of land, because it is situated at the main entrance to our 
reservation.
    To me, the Tule River Indian Reservation means a lot to me. 
I was born and raised there. The Tule River Indian Reservation 
consists of a little over 56,000 acres. The land runs from the 
lower foothills of the reservation to the redwoods at the 
6,500-foot elevation.
    This land that we have is used by our tribal members for 
hundreds of years, thousands of years, it is used for ranching, 
it is used for hunting, fishing, camping, recreational purposes 
for our community and our community members. Just like every 
other tribe in the United States, our tribe has problems going 
on with it, too. Since our current reservation was created 
along with the other reservations within California or the San 
Joaquin Valley, from the time we were herded to our first 
reservation on to our current location where we are now, there 
have been problems. Back in 1922, we lost our water rights. We 
have been fighting ever since 1922 to get it back. We are still 
unsuccessful with that.
    Along with the water problems that we have currently, the 
other morning when I left, my wife called me and said, hey, we 
are out of water. This is an ongoing thing for us, running out 
of water. The chairman is out of water, our community is out of 
water. And with the water again, we are also fighting the 
illegal crops within our mountains that bring in illegal 
chemicals from Mexico that go into our watershed.
    Housing is a problem. We have 28 departments that the tribe 
funds which supports our community and also provides jobs for 
the community. We have a little over 1,800 members.
    This piece of land that is at the very entrance to our 
reservation, to get to our reservation, you have to cross this 
land. It is a little rough area, through a little valley right 
along the river. You can't do much with the land. So it does 
mean a lot to us. It does mean a lot to my people.
    Thank you.
    [The prepared statement of Mr. McDarment follows:]

Prepared Statement of Hon. Kenneth McDarment, Vice Chairman, Tule River 
                              Indian Tribe
    The Tule River Tribe of California considers land within our 
aboriginal territory very important. In H.R. 4685, we are talking about 
34 acres. Although this may not seem like a lot of land, every acre of 
land is important to our Tribe. We have lived in California for 
thousands of years and the land and our language have been an intricate 
part of our culture. It is important for us to be able to control this 
particular parcel of land because it is situated at the main entrance 
to our Reservation.
Introduction
    Good afternoon to Chairman John Barrasso, ranking member Jon 
Tester, and fellow members of the Committee. My name is Kenneth 
McDarment, and I serve as the Vice-Chairman of the Tule River Tribe. I 
am a graduate of Porterville High School, in Porterville California, 
Class of 1992. After graduation, I worked in the oil fields and then 
attended trade school. Currently I am serving my second term on the 
Tule River Tribal Council. and I am married with four children. In 
these capacities, I humbly serve my community as a tribal leader, 
father and husband. I come before you today to respectfully request the 
support of the United States government in securing land for the Tule 
River Reservation.
    I send greetings and best wishes from all the members of the Tribal 
Council. We are very grateful for the expeditious scheduling of this 
hearing on H.R. 4685, the Tule River Indian Reservation Land Trust, 
Health, and Economic Development Act.
Tule River Indian Tribal Land History
    The Tule River Reservation is the homeland of the Tule River Tribe. 
We are descendants of the Yokuts Indians, a large group of 
linguistically-related people who occupied the vast San Joaquin Valley, 
and most of the adjoining foothills that surround the Valley, in 
California for thousands of years prior to contact with Euroamerican 
settlers. Historically there were over fifty (50) independent clans of 
Yokuts, each with its own territory and dialect of the Yokuts language. 
These clans were friendly to one another and there was much visiting 
between each. We were peaceful hunters and gatherers.
    Mexico ceded California to the United states in 1848 and also 
around that time, gold was discovered near Sacramento. As a result of 
this a huge influx of settlers began to move into our aboriginal 
territory. California became a State in 1950 and as new people began to 
make claims to what had always been our land, there were many 
hostilities between the new settlers and the tribes. During this time, 
the official Indian policy of the United States was removal of east of 
the Mississippi, into the unsettled western lands. But with the 
California Indians, there was no more western lands to move to.
    Because of the continuing tensions between the new settlers and 
Native tribes, three federal Indian commissioners visited California 
and negotiated a series of eighteen (18) treaties with the California 
Indians. The Tule River Tribe's ancestors were signatories to a treaty 
of peace and friendship, formed and concluded at Camp Burton, on Paint 
Creek, in the State of California, on the third day of June, 1851.
    By this treaty, we relinquished all the claims to the territories 
that we had and in return were promised two (2) reservations that were 
to be forever held for our sole use and occupancy. At the time, what 
was unknown to our ancestors was that in June of 1852, the United 
States Senate, meeting in secret session, rejected the treaties and 
ordered them filed under an injunction of secrecy . The treaties were 
later discovered by a clerk 1905. In 1871, Congress ended the treaty-
making era with Indians. The 18 treaties signed with the Indians of 
California were never ratified because of an overwhelming expression of 
anti-Indian sentiment by the California delegation. Because of this, 
the reservations promised to our people were never created. Instead, in 
March 1853 Congress established a Superintendent of Indian Affairs in 
California, to relocate Indians to reservations, and also provided for 
the establishment of five (5) reservations in California. The site of 
the first reservation was at the southern end of the San Joaquin 
Valley, near the Tejon Pass area. Our ancestors were rounded up and 
forced to move to the Tejon Reservation.
    Because of crop failures and the loss of the land to an Indian 
agent, the Tejon Reservation was eventually closed. The Tule River 
Indian Reservation was established in 1856. Initially known as the Tule 
River Indian Farm, it was set up and administered as part of the Tejon 
Reservation. During this time, the stated goal of federal Indian policy 
in California was to establish reservations throughout the state as 
permanent homelands for tribes. The reservations were also intended to 
provide tribes with access to traditional hunting territories and 
timber in the mountains, land suitable for agriculture, and plenty of 
water year-round for irrigation.
    The Tule River Farm was located near a Koyete Yokuts village site, 
on approximately 2,240 acres of prime San Joaquin Valley farmland in 
Tulare County. The land was transected on the southwest corner by the 
mainstream of the Tule River. It included part of what is today the 
eastern portion of the City of Porterville. The location of this 
original Reservation was purposefully selected by the Federal 
Government to provide our Tribe with the arable land and water 
resources necessary to establish a self-sufficient homeland for its 
people. Upon being promised this land as our homeland--ostensibly 
forever--we built homes and began to actively cultivate crops.
    Despite our relative prosperity in those years, two of the federal 
Indian agents assigned to reservations in the area nonetheless saw fit 
to capitalize upon the distance and ignorance of the Indian officials 
in Washington, D.C. Thomas Madden, a federal Indian agent assigned to 
the neighboring Tejon Indian Reservation, applied for and was issued a 
land patent under fraudulent circumstances to 1,280 acres of the Tule 
River Reservation land from the State of California.
    Four years later under a similar arrangement a land patent for 
1,160 acres of Tule River Reservation land was issued to Mr. John 
Benson, another Indian Agent. These two state land grants encompassed 
all of our Reservation lands. The Federal Government was fully aware 
that these lands were expressly reserved to us, but it made no effort 
to challenge the Madden and Benson land grants. Because the lands had 
been set aside for the Tribe, the State of California, had no legal 
basis upon which to issue the patents. The land transfers were also a 
violation of the federal Trade and Intercourse Act, which expressly 
prohibited Indian agents from having ``any interest or concern in any 
trade with the Indians.'' Rather than setting aside the issuance of 
these patents, the Federal Government actually paid rent to Messrs. 
Madden and Benson for at least a dozen years to enable my ancestors to 
continue farming what was in actuality our land.
    Gradually, over the years, hostility increased between the Indian 
farmers and the settlers in the area. In response to the tension, and 
rather than enforcing our rights to what should have been our 
Reservation land, in January 1873, President Grant issued an Executive 
Order creating a new reservation for the Tule River Tribe. It was 
comprised of mostly mountainous lands located about fifteen miles to 
the east of our original Reservation. The Tule River Indians and the 
Indian agent protested the removal; as the new lands would be difficult 
to cultivate. The Indian agent, J.B Vosburgh, stated ``The new 
reservation is not suited to the wants of the Indians for whose benefit 
it has been set apart, if the intention be, as heretofore, to teach 
them to become self supporting by means of agriculture, the soil of the 
reservation being insufficient both in quantity and quality for their 
need.'' He further requested that the government inquire into the 
legality of Madden and Benson land patents and, if necessary, requested 
the Federal Government to purchase the property from them for the 
benefit and use of the Indians. However, no such action was taken, and 
our people were forcibly removed from their homes and cultivated 
fields.
    The removal was very hard on our people. The new Reservation, 
though it contained 48,000 acres, was determined by the federal agents, 
based on the knowledge and technology of the time, to have scarcely 100 
acres of arable land. Even that land was deemed by the agents to be of 
poor quality, and thought to be able to support only six families--far 
below the needs of our people. An Indian agent reported, ``Year by year 
our number has decreased by death and removal, until now there are only 
143 Indians, embraced in 30 different families, residing on the 
reservation.'' Our situation was so dire that, in response, President 
Grant, in October 1873--just 9 months after the initial Executive 
Order--signed another Executive Order almost doubling the Reservation's 
size to 91,837 acres. Again, very little of these additional lands was 
deemed by the federal agents to be suitable for agriculture, and the 
few acres which were proven arable were coveted or settled by settlers, 
and history repeated itself. In August 1878, President Hays issued an 
Executive Order reducing the reservation back to the January 1873 size. 
For approximately 140 years we have lived on the Tule River Indian 
Reservation.
The Modern-Day Tule River Indian Reservation
    Today, our current Reservation includes about 58,000 acres. The 
reservation is located in south-central California, approximately 75 
miles south of Fresno and 45 miles north of Bakersfield in Tulare 
County. The Reservation is situated on the western slope of the Sierra 
Nevada Mountains, east of Porterville, and lies almost entirely within 
the South Fork Tule River drainage basin. The topography is generally 
steep, with elevations ranging from about 900 to 7500 feet above sea 
level. Most of the inhabited land is along the lower reach of the South 
Fork Tule River on the western side of the Reservation.
    The injustices and inequities of the past are still present and are 
still affecting our people. We have been plagued with unemployment and 
mortality rates substantially higher, and a standard of living 
substantially lower, than is experienced by the surrounding non-Indian 
communities.
    While the on-Reservation socio-economic conditions have improved 
over time, to this day, the Reservation residents generally continue to 
suffer from a relatively low standard of living.
Conclusion
    In closing, I would ask that my testimony and supporting materials 
be made a part of the record of this hearing by unanimous consent.
    I would be happy to respond to any questions which the members of 
the Committee might have.

    The Chairman. Thank you so much for your testimony, Vice 
Chairman McDarment.
    Chairman Watchman?

 STATEMENT OF DERRICK WATCHMAN, CHAIRMAN, NATIONAL CENTER FOR 
             AMERICAN INDIAN ENTERPRISE DEVELOPMENT

    Mr. Watchman. Thank you, Chairman Barrasso, Vice Chairman 
Tester and members of the Committee. I am Derrick Watchman, and 
I am Chairman of the Board for the National Center for American 
Indian Enterprise Development. I am also a member of the Navajo 
Nation, so yah'eh-teh'.
    I appreciate the invitation to testify on S. 3234, the 
Indian Economic Enhancement Act of 2016. We commend this 
Committee for inovative thinking and distilling all the ideas 
and recommendations that we put forth from the National Center 
and from the Committee hearings and from our reservation 
conferences.
    The National Center has provided services to Indian tribes, 
Indian businesses, tribally-owned and individually-owned, for 
over 50 years. We appreciate partnering with this Committee to 
make sure that the Indian Tribal legislation is enacted, such 
as 3234 and 3236. We also support the Native American Business 
Incubation program.
    I have submitted my written testimony, but I want to 
highlight a few of the items. Section 3 of the bill. This 
section would strengthen the Native American Business 
Development Trade Promotion and Tourism Act of 2000 in ways 
that we have long advocated. It would elevate and enhance the 
Office of Native American Business Development and Commerce by 
placing the Director at the Secretary level. We have been 
advocating for this, we think that by placing the Director at 
this level, it would provide more authority for policy-making, 
tribal consultation and commerce within and amongst the 
Commerce departments and entities. We also think that by doing 
this, it would also enhance the Indian Loan Guarantee Program, 
the CDFI and other capital programs.
    Most important, though, this office needs to be standalone 
within the Secretary's office. We urge, and I ask that you, in 
this year's appropriation, that you set aside funds for this 
specific office, the Office of Native American, we think it is 
very important. I also recommend that Section 3(d) in the 
appropriation take a different approach regarding the Indian 
Economic Development Fund. We support the fund, but this bill 
also augments the Indian Loan Guarantee Program. For years, we 
have urged that the Indian Loan Guarantee Program be funded by 
approximately $7.5 million. By augmenting this program, we 
think that this program will enhance and provide over $250 
million in tribal loan guarantees out there in Indian Country, 
and that is very much needed.
    So this appropriation could be handled also by the Interior 
Appropriations Committee.
    By contrast, the proposed funding would also take a 
considerable amount of time to establish. The sources and 
mechanisms for this fund can't be done overnight. Also, there 
is no incentive to create this fund. We think that by providing 
some incentives, like tax incentives to help fund this 
development fund, it would be a great enhancement.
    We also think that by asking for a study by the GAO, it 
will help to quantify the true need of this program. What we 
need to do is look at how do we increase incentives into the 
new markets tax program.
    Finally, we commend your efforts in working with the Senate 
Finance Committee. We think that repealing the essential 
governmental function test for tribal taxes and bonds is 
essential. We urge, I urge this Committee to consider 
introducing a Senate companion bill to H.R. 4943. This bill is 
pending in the House and we are looking for enactment this 
year.
    As to Section 4, amending the Buy Indian Act, the National 
Center has long sought for the expansion and updating of this 
program. At our workshops that we have at our reservation 
conferences, we have talked to the Bureau of Indian Affairs and 
they have been there to really support the Buy Indian program.
    We urge that the Indian Health Service also be in the room, 
also be a part of the Buy Indian program. We think it is 
important. So we urge that the Indian Health Service also look 
at adopting rules similar to what the BIA has.
    We think the departments should also set up annual 
percentage goals when they do utilize the Indian Procurement 
Act, when they buy goods and services from Native-owned 
businesses.
    Finally, on Section 6, reauthorizing and amending the ANA 
programs, I am glad to see that the recommendations that I 
provided last year to this Committee when you had your 
testimony that access to capital has been translated. It also 
prioritizes ANA so that they can get involved in social and 
economic development grants for groups like Native CDFIs and 
other important projects like COACH, tribal programs, tribal 
master plans and identifying the unique tribal business 
structures. We think that it is good that ANA is involved and 
we urge the ANA to prioritize and provide technical assistance 
for grantees.
    I want to say thank you to this Committee. I also want to 
say thank you, Chairman, for acknowledging Mr. Davis. He 
decided to move on, so from the National Center, we wish him 
well. He has done a great job for the National Center. So we 
stand for questions. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Watchman follows:]

 Prepared Statement of Derrick Watchman, Chairman, National Center for 
                 American Indian Enterprise Development
    Chairman Barrasso, Vice Chairman Tester, and members of this 
distinguished Committee, I am Derrick Watchman, Chairman of the Board 
of Directors of the National Center for American Indian Enterprise 
Development, and a citizen of Navajo Nation. Thank you for inviting me 
to testify at this important hearing to present the views of the 
National Center on S. 3234, the ``Indian Community Economic Enhancement 
Act of 2016.'' As stated in our letter of support for S. 3234, we 
commend you and the staff for the care and innovative thought that went 
into distilling years of testimony and recommendations presented by the 
National Center, other national tribal and native organizations and 
leaders of Indian communities across the country, and then producing 
this legislative proposal to spur business and economic development in 
Indian Country. The measure responds favorably to many of the National 
Center's recommendations presented to this Committee in hearings and 
listening sessions over the years to enhance programs and better target 
them to address Indian Country's unique sovereign and business 
characteristics, capabilities, and access to capital challenges.
    As you know, the National Center has successfully provided business 
and procurement technical assistance for nearly 50 years to Indian 
tribes, Alaska Native regional and village corporations, Native 
Hawaiian Organizations, and enterprises owned by these entities or 
individual members of these communities. For this broad constituency, 
the National Center also hosted Reservation Economic Summits (RES) for 
30 years and has advocated for policies to advance Indian business and 
economic development interests. We have appreciated working in 
partnership with the Committee and national tribal and other native 
organizations to support important initiatives of the Committee on 
energy, business and economic development especially. We applaud the 
Committee's bipartisan, effective leadership in spearheading toward 
passage of S. 209, the Indian Tribal Energy Development and Self-
Determination Act Amendments of 2015, and for developing business and 
economic development legislation in the form of Chairman Barrasso's 
bill, S. 3234, co-sponsored with Senator McCain, and Vice Chairman 
Tester's bill, S. 3261. These bills contain innovative responses to the 
drumbeat of recommendations that have been presented in oversight 
hearings and some Committee listening sessions hosted at our RES 
conferences. As background for my testimony today, I have referred to 
the National Center's views presented at: the Oversight Hearing on 
``Economic Development: Encouraging Investment in Indian Country'' on 
June 25, 2014; the Committee's ``Listening Session on Economic 
Development'' at RES Wisconsin on October 9, 2014; the Oversight 
Hearing on ``Indian Country Priorities for the 114th Congress'' on 
January 28, 2015; the Committee's Listening Session on ``Buy Indian Act 
and Community Development Financial Institutions'' on June 16, 2015; 
the Oversight Hearing on ``Access to Capital in Indian Country'' on 
June 17, 2015 (when I testified in my personal capacity as a former 
banker, and the hearing was streamed into RES DC for hundreds of our 
conference participants to see); and the Committee's Listening Session 
on the President's FY 2017 Budget Requests on February 17, 2016.
Comments on S. 3234
    In previous hearings and listening sessions, the National Center 
has repeatedly called for actions that S. 3234 proposes to advance, 
including elevating and enhancing the Office of Native American 
Business Development reporting directly to the Secretary of Commerce, 
augmenting support for the Indian Loan Guarantee Program, and for the 
Community Development Financial Institutions (CDFI) Fund bond guarantee 
program to help more Native CDFIs. The bill also addresses Buy Indian 
Act implementation issues we have raised, and moves toward achieving 
parity in the tax treatment of tribal governments' bond financings. 
Below are specific comments.
Section 2. Findings
    Overall, we agree with the thrust of the findings. Some important 
points, raised at numerous hearings, should be added. Paragraph (1)(A) 
lists several barriers that must be overcome, such as lack of 
infrastructure or capacity and lack of sufficient collateral. To that 
list, ``lack of sufficient capital'' should be added. Paragraph (5)(B) 
noted that access to private capital for projects in Indian communities 
may not be ``realized'' but the word ``available'' would be more 
appropriate. In paragraph (7), we recommend revising it to read: ``(7) 
there are a number of federal loan guarantee programs available to 
facilitate financing of business, energy, economic, housing, and 
community development projects in Indian communities, but those 
programs may be oversubscribed or not yet fully used; and''. As the 
National Center has testified repeatedly, the Indian Loan Guarantee 
Program has been woefully underfunded, resulting in backlogs of 
financings that could not be timely completed because the credit 
subsidy for the guarantees was exhausted well before the end of the 
last two fiscal years. our views on the FY 2017 Budget Requests noted 
the omission of any funding request for the Indian Energy Loan 
Guarantee Program. We were delighted that Senator Franken was 
successful in adding credit subsidy funding in the Energy 
Appropriations bill for FY 2017 to implement the Indian Energy Loan 
Guarantee Program if that measure becomes law. The Department of 
Agriculture's loan guarantee program also lost ground in the FY 2017 
requests.
Section 3. Native American Business Development, Trade Promotion, and 
        Tourism Act of 2000
    As mentioned earlier, the National Center has long advocated for 
elevating and enhancing the Office of Native American Business 
Development headed by a Director reporting directly to the Secretary of 
Commerce, as contemplated in the enactment of the Native American 
Business Development, Trade Promotion, and Tourism Act of 2000 (Public 
Law 106-464, referenced herein as the ``2000 Act''). We have made this 
request every time the National Center has testified before this 
Committee over the last 10 years at least.
    The Department of Commerce operates so many agencies and programs 
that could benefit Indian communities, and link them with opportunities 
domestically and globally. It is essential that Commerce embrace that 
challenge by supporting the Office of Native American Business 
Development! Yet, from 2000 to 2005, Commerce disregarded the 
directives of the Act, and those of another passed in 2000, the Indian 
Tribal Regulatory Reform and Business Development Act. In mid-2005, 
Commerce's Minority Business Development Agency (MBDA) paid some 
attention, as noted in our June 25, 2014 testimony, with the MBDA 
Director assuming the title of Director of the Office of Native 
American Business Development and allocating about $200,000 for an 
experienced Native American to be hired, develop a business plan, and 
begin fulfilling the requirements of the two statutes enacted in 2000. 
Three Native Americans, successively, held that position, with the 
latter two also designated at the Senior Advisor to the Secretary on 
Native American Affairs. The last ``Senior Advisor'' was housed in the 
Inter-Governmental Affairs Office and had to split his time between 
Indian Country initiatives and many other, unrelated responsibilities. 
To be effective, the Director's sole focus should be on the Office of 
Native American Business Development, with its own budget and some 
staff to assist with full implementation of the duties prescribed in 
the Act and the amendments to it proposed in S. 3234.
    Mr. Chairman, the National Center commends you and your staff for 
responding to our recommendations. We strongly support Section 3 
provisions that define the ``Director'' of this Office, elevate the 
Office by placing the Director in the Office of the Secretary of 
Commerce, and enhance the Director's authority to coordinate the 
activities of Commerce and other key departments, to be actively 
involved in policy, and to ensure timely assistance and consultation 
with Indian tribes regarding the policies, programs, assistance and 
activities, as required by the Act. This legislation, coupled with 
needed action in Commerce Appropriations bills to make funds available 
for the Office within the Departmental Management budget, have long had 
the support of at least a dozen national and regional native 
organizations.
    The National Center also supports the provisions of Section 3(d) 
that would add a new section 8 to the Act to require the Director to 
coordinate with the Departments of the Interior and the Treasury 
(acting through the Administrator of the CDFI Fund) on the development 
of certain ``initiatives'' that encourage, promote, and provide 
education regarding investments in Indian communities through (1) the 
Indian Loan Guarantee Program, (2) the CDFI Fund and Native CDFIs, and 
(3) other capital development programs. Additional important 
``initiatives'' would include examining and developing alternatives 
that would qualify as collateral for financing in Indian communities, 
and identifying regulatory or legal barriers to increasing investment, 
including qualifying or approving collateral structures, in Indian 
communities.
    There are two provisions of Section 3(d) that the National Center 
would like to see revised, however. First, in the new section 
8(a)(1)(C) proposed to be added to the Act, we suggest some expansion 
of the directive to provide ``entrepreneur and other training relating 
to economic development through tribally controlled colleges and 
universities''--no doubt valuable curricula for these educational 
institutions. The National Center knows the importance of this training 
for Indian Country, and therefore hosts our national and regional RES 
conferences and our Native Edge webportal to provide a vast array of 
entrepreneurial and other training relating to economic development. 
Other Indian organizations also provide such training. For many years, 
Commerce's MBDA supported some of this training, as part of 
entrepreneurial and business assistance, under cooperative assistance 
agreements for operating Native American Business Enterprise Centers 
(NABECs). The National Center and other Indian organizations operated 
NABECs across the country, until MBDA withdrew that support in favor of 
funding ``MBDA Business Centers'' only. The point here is that, if S. 
3234 becomes law and new initiatives involve funding of entrepreneurial 
and other training relating to economic development, other Indian 
organizations--in addition to tribally controlled colleges and 
universities--should be eligible for such funding opportunities.
    Second, Section 3(d) proposes to add a new section 9 to the Act 
that would establish an ``Indian Economic Development Fund'' in the 
Treasury of the United States. The intended purpose of this Fund would 
be to augment the existing credit subsidies of the Indian Loan 
Guarantee Program (25 U.S.C. 1481) and to establish a credit subsidy 
solely for any eligible CDFI that applies for financing under the CDFI 
Fund bond guarantee program and whose investment area includes an 
Indian reservation or whose targeted population includes an Indian 
tribe. The National Center has long urged Congress to augment the 
credit subsidy supporting the Indian Loan Guarantee Program--to which 
Congress can and should respond by increasing the amount it 
appropriates for that line item in the annual Interior Appropriations 
Act. We have testified repeatedly that adding just $7.5 million more 
for the program would double the value of the private loan financings 
that could be made for business and economic development projects in 
Indian Country! Such a relatively small increase could be deployed 
immediately to leverage about $250 million in private sector loans. In 
2006, Congress recognized the importance of the program by increasing 
the aggregate value of guaranteed loans from $500 million to $1.5 
billion. Funding the Indian Loan Guarantee Program is a federal 
obligation, and Congress can and must act now to increase this line 
item in the FY 2017 Interior Appropriations Act.
    While the National Center supports the proposed purpose of the 
Fund, we are concerned about the time it would take to establish the 
Fund, the mechanism proposed for deposits to the Fund, and the lack of 
any identified incentives that would attract such deposits to generate 
at least $7.5 million to augment the Indian Loan Guarantee credit 
subsidy, and amounts specified for the CDFI Fund bond guarantee 
program. A more helpful interim step would be consideration of an 
Indian Economic Development Feasibility Study (perhaps by the 
Government Accountability Office) to quantify and assess the past use 
and allocation, and feasibility of expanding, incentive programs to 
facilitate and increase business, economic, energy, housing, community 
and infrastructure development in Indian communities--specifically the 
following: the New Market Tax Credits; the Low Income Housing Tax 
Credits; the Indian Employment Tax Credits and Accelerated Depreciation 
provisions; the Investment Tax Credit; and Renewable Energy Tax Credit 
and other energy-related tax credits. The study also could assess the 
feasibility of providing a tax credit, with a value equivalent to the 
New Market Tax Credit, to entities investing in an ``Indian Economic 
Development Fund'' for the purposes proposed in S. 3234.
    Our final comment on Section 3(d) relates to its provision defining 
``Tribal Government Functions'' such that ``the essential governmental 
functions of an Indian tribe shall be considered to include any 
function that may be performed or financed by a State or unit of local 
government with general taxing authority.'' The National Center 
supports the underlying purpose of this provision as generally 
consistent with our repeated testimony advocating tax legislation to 
eliminate the restrictive ``essential governmental function'' test for 
tribal tax exempt bond issuances, and to provide fairer tax treatment 
of tribal governments in parity with state and local governments. Now 
pending in the House of Representatives is bipartisan, non-
controversial legislation, H.R. 4943, the Tribal Tax and Investment 
Reform Act of 2016, that would amend the necessary provisions of the 
Internal Revenue Code to accomplish these and other objectives. We join 
the Indian tribes, national tribal and other organizations in urging 
the members of this Committee to consider introducing a Senate 
companion bill, and supporting enactment of this important tax 
legislation before the 114th Congress adjourns.
Section 4. Buy Indian Act
    As noted earlier, the National Center has advocated for 
strengthening and expanding the Buy Indian Act's reach. Our June 25, 
2014 testimony recounted how National Center leaders called on this 
Committee back in 1987 and 1990 hearings to broaden use of Buy Indian 
Act authority beyond the BIA and IHS to other federal agencies that 
expend funds for the benefit of American Indians and Alaska Natives. 
Together with other Indian organizations, we urged the Department of 
Interior to promulgate modern-day regulations (after a 100-year delay). 
We submitted public comments urging the Department to establish a 100 
percent goal for utilization, monitor compliance, and report annually 
on the extent of utilization and amount and value of contracts awarded 
to Indian-owned economic enterprises. Subsequently, the National Center 
has hosted many RES conferences with workshops on Buy Indian Act 
implementation, inviting both BIA and IHS, but only BIA speakers have 
attended. We hope that Section 4 will spur IHS officials to dedicate 
far more attention to their Buy Indian Act obligations by adopting 
updated regulations along the lines of BIA's new rules, using the 
authority in far more procurements, and showing up when they are asked 
to speak about the status of their implementation efforts.
    We are gratified that Section 4(b) includes provisions to require 
greater use, with the presumption that Buy Indian Act authority will be 
used for procurements, unless the Secretary of the Interior and or the 
Secretary of Health and Human Services determines such use to be 
impractical and unreasonable. We also appreciate the provisions in 
Section 4(c) to improve implementation by requiring the Secretaries to 
conduct outreach to Indian industrial entities, provide training, 
require BIA and IHS regional offices to aggregate data regarding 
compliance with the new provisions, require procurement management 
reviews that include assessment of implementation, and consult with 
Indian tribes and other stakeholders regarding methods to facilitate 
compliance with the Act and other small business or procurement goals. 
And, we are delighted that Section 4(d) requires, as we had 
recommended, that the Secretaries submit reports to this Committee and 
its House counterpart containing information on the names of agencies 
making Buy Indian procurements, the types of purchases from and 
contracts with Indian economic enterprises, description of the 
percentage increase or decrease in total dollar value and number of 
purchases and awards made within each agency region (as compared to the 
preceding fiscal year) from Indian and non-Indian economic enterprises, 
and any administrative procedural, legal or other barriers to achieving 
the purposes of Section 4, together with recommendations for 
legislative or administrative actions to address those barriers. To 
this list should be added the requirement to determine an annual 
departmental goal for the percentage of awards that will be made in the 
coming year using Buy Indian Act authority.
Section 5. Indian Trader Act
    As the National Center has not been involved with any efforts to 
update, revise or otherwise deal with this 1876 Act, we respectfully 
defer to others who may wish to offer comments on this section based on 
their substantive knowledge of the subject matter.
Section 6. Native American Programs Act of 1974
    When I testified at this Committee's oversight hearing on ``Access 
to Capital in Indian Country'' on June 17, 2015, I was asked to discuss 
the elements that I believe are essential for facilitating access to 
capital in Indian Country and what some of the roles are that the 
Federal Government, tribal governments, and bankers can play to improve 
access to capital. I mentioned, for example, that tribal access to 
capital can be facilitated by tribal uniform commercial codes or 
similar ordinances, good tribal court systems with commercial dispute 
resolution mechanisms, planning (including business plans, feasibility 
studies, master plans), among other financial elements (sophisticated 
financial management, etc.). I also spoke about traditional banking 
institutions, native owned banks, and the increasing numbers of Native 
CDFIs operating across Indian Country. The National Center frequently 
has voiced support for increased funding for the Native CDFIs, and for 
the Administration for Native Americans (ANA) that administers the 
grant program amended by Section 6. The section proposes to reauthorize 
ANA's grant programs through FY 2021, make Native CDFIs eligible to 
apply for ANA's economic development program grants, prioritize 
economic development grants for certain types of applications, and 
prioritize any technical assistance for grantees and applications 
submitted under this session. Given the identified need, it makes sense 
to encourage the ANA to support grants to develop (1) tribal codes and 
court systems relating to economic development, (2) nonprofit 
subsidiaries and other tribal business structures, and (3) tribal 
master plans for community and economic development and infrastructure. 
However, Section 6 would reauthorize ANA's funding only at current 
levels, and many Indian tribes, other tribal entities and Indian 
organizations should be able to compete on a level playing field for 
grants in these priority areas. If funding were increased for ANA's 
grant programs, there would be more leeway to prioritize ANA's funding 
and technical assistance for Native CDFIs, or for development or 
maintenance of CDFIs, including training and administrative expenses, 
beyond that which already may be available from the CDFI Fund for such 
Native CDFI development-related activities.
Comments on S. 3261
    The National Center also supports enactment of S. 3261, the 
``Native American Business Incubators Program Act'' that responds 
favorably to requests of the National Center and other native 
organizations over the years for Congress to create a business 
development program tailored specifically to Indian Country's unique 
sovereign and business characteristics and capabilities, and focused on 
incubation and access to capital challenges. During the 1990s, the 
Small Business Administration (SBA) provided about $5 million per year 
to support Tribal Business Centers, but that funding ended in 2001. 
Subsequent efforts were persistent but unsuccessful in moving 
legislation to authorize creation of a Native American small business 
development center program within SBA. Then, in 2012, as I noted 
earlier, MBDA decided to end the cooperative assistance agreements it 
had funded NABECs' operations. So, since 2012, there has been no 
federal program support focused on Native American entrepreneurial and 
business assistance, incubation and mentoring of tribes and Native 
Americans striving to start and grow their business enterprises. S. 
3261 presents an innovative response to this urgent need.
Conclusion
    Again, I thank the Committee and staff for working collaboratively 
with the National Center to encourage Indian Country stakeholders to 
think about, articulate and offer up policy recommendations and then 
develop the proposals discussed at this hearing to enhance Indian 
community economic development. Since our organization's launch in 
1969, National Center leaders have worked to ensure that Indian-owned 
businesses, whether tribal member startups or major enterprises, have 
the opportunity to acquire entrepreneurial skills, receive business 
assistance and training, meet potential business partners, and receive 
procurement technical assistance to become capable of competing in 
private and public marketplaces, both nationally and internationally. 
The National Center supports S. 3234, with our suggested amendments, as 
important to galvanize key departments and agencies to work much more 
proactively with Indian communities and their economic enterprises. We 
look forward to working with the Committee, its staff and others to 
perfect the language and move toward enactment to advance business and 
economic development in Indian Country.

    The Chairman. Thank you very much for your testimony.
    We will start with Senator Hoeven.
    Senator Hoeven. Thank you, Mr. Chairman. I would like to 
thank all the witnesses for being here today and direct my 
first question to Cheryl Andrews-Maltais.
    In your testimony, you discussed the Department's support 
for S. 3261, which creates grants to establish and maintain 
business incubators for Native American entrepreneurs. In my 
State of North Dakota, we have the North Dakota Indian Business 
Alliance, which is a joint venture between our Department of 
Commerce, the State's Department of Commerce, and the Indian 
Affairs Commission, which is also an agency of North Dakota. 
The idea is to strengthen Native entrepreneurs by building 
working relationships to enhance their developing.
    My question is, in your opinion, is there flexibility in S. 
3261 to partner with State or regional agencies or groups and 
try to leverage their help? Is that in the legislation? Or is 
there something else we should do to try to make sure that that 
is possible in order to create that leverage?
    Ms. Andrews-Maltais. Well, I do have one of our subject 
matter experts with us, Jack Stevens. But what we are asking 
for as part of our testimony is to work with the Committee to 
improve the flexibility for implementation, so that it works, 
it provides more flexibility than what the bill currently has. 
If you'd like any more greater detail with that, I can have 
Jack come up and answer that question with more specificity, if 
that would help.
    Senator Hoeven. That would be great, if you have something 
to add.
    The Chairman. Could you please start by identifying 
yourself for the record?
    Mr. Stevens. Yes, sir, Mr. Chairman and members. I am Jack 
Stevens, the Acting Director of the Office of Indian Energy and 
Economic Development, Department of the Interior.
    The question, sir, I believe in the bill that there is 
broad eligibility for groups to apply for these grants. Some of 
the private entities that you mentioned that are affiliated 
with tribes could actually apply to become incubators 
themselves.
    Senator Hoeven. Good. We are always working to try to come 
up with resources, whether it is at local, State, Federal, 
tribal level. So we have to find some way to pool our 
resources. I am hopeful this bill will help us do that.
    My other question is for Mr. Watchman. We have seen some 
success in our State with tribes adopting the Uniform 
Commercial Code, UCC. That helps investors mitigate risk in 
lending to tribes, it helps tribal businesses gain financing, 
develop credit. But we have found that not all the tribes 
utilize the Uniform Commercial Code, and that can create 
confusion and uncertainty for investors.
    So in your opinion, what can be done to encourage tribes to 
utilize the UCC as a way to create more certainty and hopefully 
more business development?
    Mr. Watchman. Thank you for the question. I am the Chairman 
of the National Center, but before this, I was a lender with 
Chase Bank. So I did a lot of commercial lending in Indian 
Country. One of the big things was uniformity.
    Senator Hoeven. Yes, then you know what I am talking about.
    Mr. Watchman. I know exactly what you are talking about. 
The big issue, as a former banker, is that you have over 580-
plus or 60 different tribes, so in essence, you have over 580 
different systems. So one of the things, as a former banker, 
was how do we get consistency. So I strongly urged, and in 
fact, as a member of the Navajo Nation, the Navajo Nation is 
also looking at a uniform commercial code system. But it needs 
to be something that everyone can adopt. I strongly think that 
it is important so that on the investor side, the investor 
understands that, in this case, it is hard to say, but we need 
one system that fits all. It is similar to what the States 
have, they do have a uniform commercial code, so you can go 
from one State to the next and you know that you have 
certainty, you have things that are written.
    So as the Chairman of the Board for the National Center, I 
think it is important to have one system. There could be some 
changes per tribe, but it is very important, so that when we 
have a lender or investor, they understand that you do have, 
for example, you do have a place to hear your dispute, you do 
have a place, if there is a bankruptcy, you know what the 
issues are. So from the National Center, although it is a 
challenge, I think a system that all tribes adopt would be the 
best, so that lending, credit, agreements can take place. So 
the issue that we are dealing with is, if there is a dispute, 
how do you resolve the dispute. This UCC system would certainly 
address that. So that has been my experience.
    Senator Hoeven. Is the Navajo Nation the largest by number 
of members of any of the tribes? Or is that not the case? I 
know it is a very large tribe, isn't it?
    Mr. Watchman. One of the largest tribes, but I guess that 
depends on each day. But yes, we are one of the larger tribes.
    Senator Hoeven. Obviously, if you could work something out 
to adopt the UCC, that would be a big step. Thank you very 
much. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Hoeven. Senator Udall?
    Senator Udall. Thank you, Mr. Chairman. Let me welcome 
Derrick Watchman. Thank you for your testimony, all the 
witnesses today. Thank you, Derrick. I have known you for 
years. You come from a family with a long history of public 
service. You not only have extensive background in banking and 
economic development that is here, but you have been CEO of the 
Navajo Nation Gaming Enterprise, you have also been chief of 
staff to the Navajo Nation and served as the Director of Indian 
Affairs at the Department of Energy. So we appreciate you and 
your family and the long public service.
    When you were talking, Mr. Watchman, about the set-aside 
provisions in the Buy Indian Act, and you talked, I think, 
specifically that there should be specific targets, do you have 
in mind a specific number, a percentage? And could you tell me 
why you think it would be better to put a specific target in 
the legislation?
    Mr. Watchman. Mr. Chairman and Senator Udall, I think 
targets are important. Otherwise, as a former official at the 
Department of Energy, one of the things I was trying to do was 
to get all the others, there's billions and billions of dollars 
in all these departments. So if you don't have a target, there 
is no goal. If you strongly urge that you need to buy from 
Native Americans, it is not going to happen.
    I was just talking to the Navajo Nation Washington office 
this morning. They told me, make sure you say, at least 15 
percent, at least 15 percent of all purchases should be from a 
Native-owned business or a Native-owned concern. I don't have 
the right answer, but at least that is a target. So every year, 
when these departments get their budgets, they have to start 
looking at, how much should I utilize from Indian America, 
Indian business America, for this.
    So I think targets are important. I am not sure what the 
number is, but I will go with what the Navajo Nation 
recommended to me this morning, 15 percent of all the annual 
purchases should come from Native American-owned businesses and 
concerns. That is one suggestion, Senator.
    Senator Udall. Thank you, Derrick, very much.
    Cheryl, could you also address this issue? As you know, 
Section 6 of the Indian Community Economic Enhancement Act of 
2016 has a Buy Indian Act provision to consider in terms of 
procurement. I would like to see this Buy Indian Act be 
stronger. As you know, in many of the Federal statutes, as he 
has alluded to, if we have a set-aside for whether it is 
veterans or small business or those kinds of things, it is much 
stronger. Do you have a specific goal or target? Does the 
Department have a position on setting a target for agencies to 
award a percentage of contracts to Indian-owned businesses?
    Ms. Andrews-Maltais. Specifically underneath the Buy Indian 
Act, 100 percent of the acquisitions performed by the 
Department are supposed to be considered tribally-owned. So the 
goal is 100 percent wherever we can. So a percentage, in our 
opinion, would basically limit, or be contrary, to the role 
that we are looking at today overall.
    Now, if we are saying to a percentage, limit that goal to 
tribal entities and remaining amounts to IEEs, then that would 
also be contrary to the competitive basis of the nature of how 
the bills are set up and how they are used in trying to 
contract for reasonable prices. So I am not exactly sure what 
the aspect of a percentage goal is, because the goal is 100 
percent. The Department itself is trying to promote and 
encourage contracting and acquisitions of tribally-owned 
businesses.
    Senator Udall. Thank you very much for that answer. I am 
pleased to see the Department supports S. 3261. We have these 
high unemployment rates, as you know. Regardless, if enacted 
this Congress, we need boots on the ground on a persistent 
basis, working with tribes and relevant stakeholders to really 
get tribally-owned businesses going. I hope I can get your 
commitment from you or the Assistant Secretary to come to New 
Mexico and meet with Pueblos and tribes including the Navajo 
Council of Economic Advisors, to share best practices and work 
with us to foster entrepreneurs in Indian Country.
    I hope I can get your commitment on that.
    Ms. Andrews-Maltais. Absolutely. We are happy to work with 
the Committee and the tribes to be able to really help 
invigorate economic development for the tribes themselves.
    Senator Udall. Thanks very much. Thanks for your service.
    I yield back, Mr. Chairman.
    The Chairman. Thank you, Senator Udall. Senator Daines?
    Senator Daines. Thank you, Mr. Chairman.
    The conversation in my office recently, Bill Snell of the 
Rocky Mountain Leaders Council, which is based in Billings, 
Montana, shared how important it was that lenders feel more 
comfortable in doing business with tribes, and if they have 
better assurances that there is a legal recourse should any 
bumps along the road arise.
    Unfortunately, lenders don't currently have that comfort in 
Montana, and I am guessing in other States around our Country. 
It is a detriment, frankly, to the economies in Indian Country.
    Ms. Andrews-Maltais, in studying the barriers to lending on 
reservations, it appears that unfamiliarity with tribal laws, 
because each has their own uniqueness, may cause conventional 
lenders to almost freeze up because of the uncertainty. Do you 
agree with that and could you share any insights to that point?
    Ms. Andrews-Maltais. There are several factors that seem to 
preclude lenders and conventional financial institutions from 
working with tribes. Some of it has to do with their lack of 
familiarity. Some of it has, with tribes that do have 
standardized codes that they can rely on, some of it has to do 
with their lack of understanding that there are significant 
opportunities in Indian Country. And part of it is that you 
have tribes that are at varying stages of their governmental 
process. So those that are in positions that have significant 
advantages to either having the in-house expertise are able to 
reach out, and that number is small, where the overwhelming 
majority doesn't have those capacities. Therefore, having 
legislation like this and working with the Federal Government 
and the tribes and the Administration to develop some sort of 
uniform codes I think would be really advantageous for anybody 
involved to make people aware that not only do these 
opportunities exist, there are codes, there are codes that can 
actually, these outside entities can rely upon. It elevates 
both Indian Country and their neighbors as well.
    Senator Daines. I also wonder, is there a little of the 
chicken and egg here? In other words, does some of this 
uncertainty come from the fact that some of these lenders, 
frankly, just haven't done business in tribal communities 
before?
    Ms. Andrews-Maltais. Yes, a lot of it is because nobody has 
done business in Indian Country. But you also have to take into 
consideration that although the tribes have had our governments 
and we have continued being prosperous since time immemorial, 
underneath this new structure of government that we work 
currently, it is rather new. So these opportunities are kind of 
new for outside entrepreneurs and/or financial institutions to 
recognize.
    Senator Daines. There is a recent study that was conducted 
by the University of Arizona, regarding increasing access to 
capital and credit in Native communities. It recommended that 
the best way to spur economic growth in Indian Country is for 
the Federal Government sometimes just flat out get out of the 
way. In fact, let me read a quote from the report. It says, ``A 
reduction in Federal bureaucracy is like to generate the most 
revenue and capital for tribes.''
    Ms. Andrews-Maltais, would you agree with that 
recommendation?
    Ms. Andrews-Maltais. To an extent, I have to say that it 
does make sense. There are several models that are currently 
within the Federal system that are a good way of demonstrating 
that. Within the IRA, the Section 17 corporate structure, the 
tribes negotiate and develop their own corporate structure 
internally and bring that to the Federal Government for the 
Secretary of the Interior to in fact approve so that there is a 
structure by which the tribes can go into business partnerships 
with non-tribal entities.
    Additionally, another model that is similar to that, that 
allows the tribes the flexibility and sovereignty to negotiate 
their own deals is through the compacting underneath the 
gaming, underneath the Indian Gaming Regulatory Act, where the 
tribes and their partners and the States negotiate their 
agreement. And then the Federal Government basically approves 
that, stepping out of the way of being too involved but yet 
standing as an advocate and protecting the rights and interests 
of the tribes so they are not taken advantage of as well. 
Specifically when tribes may not have the particular expertise 
internally to protect themselves.
    Senator Daines. So it is certainly probably a mixed bag?
    Ms. Andrews-Maltais. I believe so.
    Senator Daines. In your opinion, what are some of the 
places or programs that you see where the Department of the 
Interior might be able to change, scale back, streamline the 
approach to make the bureaucracy less burdensome for tribes?
    Ms. Andrews-Maltais. I think that is part of the challenge 
that we are offering to work with Congress and the tribes in 
order to develop a really strong program that can be 
universally applied through Indian Country on a broad base, and 
then bring those specifics into the individual negotiations of 
contracts between the individual 567 tribes that we do have.
    Senator Daines. Thank you for your very articulate answers. 
I appreciate it. Mr. Chairman, I yield back.
    The Chairman. Thank you, Senator Daines. Senator Heitkamp?

               STATEMENT OF HON. HEIDI HEITKAMP, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Heitkamp. Thank you, Mr. Chairman. I want to start 
out by talking a little bit about impediments to lending, one 
of which obviously is collateral. Kind of traditional way that 
you would envision a mortgage or a business loan, go to the 
bank, you can put the land up as collateral. In the case of 
tribal entities, and certainly certain individuals, the Federal 
Government, because they retain title, has created an 
impediment to traditional lending. Would you agree with that, 
Ms. Andrews-Maltais?
    Ms. Andrews-Maltais. We have found that it has been a 
challenge and there have been a few lending institutions that 
have actually stepped forward to work with tribes, and 
understand the complexities of the land in trust versus being 
able to use that as collateral. But we do have a lot of subject 
matter experts within our Department that would be happy to sit 
down and go over the specifics of how best to approach this, 
and/or bring more of their particular expertise through their 
experiences with the challenges that tribes have brought to 
them that might be a little bit more appropriate.
    Senator Heitkamp. From my experience, one of the best 
outlets is working with a local community banker who lives in 
the community. Probably works very closely every day with 
members of the tribe. We have one banker in North Central North 
Dakota who has done many, many home mortgages on trust land. He 
has never had a foreclosure, in part because that is what 
community banks do, they engage in relationship banking. I 
think that the more we can work with community banks to create 
programs that give them the certainty, the better we are going 
to be in terms of providing capital, get that capital right at 
home.
    That is why I really applaud both the Chairman and the Vice 
Chairman for introducing bills that look toward 
entrepreneurship, look toward building that business ability. 
Because we know in today's world, we can do a lot of things in 
rural America and tribal America if we just have the resources 
and the infrastructure.
    The concerns that I have are that every agency seems to 
have a program. I think you would get my tribes in North Dakota 
to say that USDA has been almost more significant of a partner 
in economic development than any other Federal agency, because 
USDA provides the lending for infrastructure.
    One of the concerns that we have been talking a lot about 
is the lack of infrastructure, whether it is broadband, whether 
it is just roads and bridges, whether it is hospitals, whether 
it is schools, and what impact that has on business 
development. So it is not that we can just look at business 
development or adopting a UCC or doing all of those things that 
will guarantee to lenders that there is rule of law. The 
question is, what is it that people want to do.
    And it seems to me that, Mr. Watchman, that there is a real 
wealth of information in Indian Country that doesn't get 
disbursed very well, that we don't apply best practices in 
terms of tribal development and tribal member development. How 
do we bridge that? How do we have a broader platform for all 
the good things that are happening, so that they can be shared 
in ways that could achieve broader economic development goals 
for all tribes?
    Mr. Watchman. Mr. Chairman and Senator, that is a tough 
question. But from the National Center, we have periodic 
reservation economic summits. It is a big forum and venue to 
bring all the different parties together to talk about the 
success stories and things that are happening in Indian 
Country. Indian economic development and community development 
has been a challenge, whether it is access to capital, the 
availability of land, the varying rules and regulations in law.
    So it is a big challenge. I know that our group, along with 
the other national Indian organizations, we do try to bring all 
the different parties together and talk about the success 
stories. And we do showcase that. We have an annual reservation 
economic summit conference, and we try to highlight all the 
good things, whether it is someone who acquired a huge loan or 
someone who was able to create a business, or has a lot of 
jobs. It is just more communication and all of us working 
together.
    Yes, there are over 567 different tribes. But the forums 
that are out there, we need to communicate more. That is what 
we do with the National Center. We try to highlight, again.
    So there is challenge in everything.
    Senator Heitkamp. I am out of time, but I think it would be 
interesting, from that gathering, to do a look-back. What were 
the obstacles? What were the biggest impediments that 
successful Indian businesses have had? And how do we overcome 
those kind of in a generality? Because we won't be able to 
attack all of them. But to get at these impediments that could 
be limiting everybody uniformly I think would be pretty 
critical.
    But entrepreneurship, it seems to me that if we are going 
to grow tribal America, we have to start at home.
    The Chairman. Thank you, Senator Heitkamp. Senator Tester?
    Senator Tester. Thank you, Mr. Chairman. This is for you, 
Cheryl. Between 2010 and 2014, BIA contracting was between 7 
percent and 13 percent. You had said that the Buy Indian Act 
goal should be 100 percent. That is a pretty good gap.
    Do you have any intermediate steps or goals that might make 
this more attainable?
    Ms. Andrews-Maltais. That is certainly the goal, of 100 
percent, and I have to agree, that is a big gap. But in, I 
think, I am not sure, I believe that Jack would be much more 
appropriate to respond to that.
    Senator Tester. With the Chairman's consent, Jack can 
answer that question.
    The Chairman. Go ahead.
    Mr. Stevens. Jack Stevens, once again, Mr. Chairman and 
Senators.
    The answer to the question is that we have, the default 
position is Buy Indian. As a manager who does procure, I can 
tell you that we enacted new regulations last year. Since that 
time, the default position, as I say, is Buy Indian. That means 
that anything, any type of purchase, if we don't buy Indian, we 
have to justify it. So immediately, we look for Indian vendors.
    This is a new culture in the Administration.
    Senator Tester. That is good. What level are you at now as 
far as buying Indian?
    Mr. Stevens. We really don't have a fix on what has 
happened since the regulations were enacted. But I think you 
are going to see that when the statistics are gathered, you are 
going to see a much higher increase than 15 percent.
    Senator Tester. All right. When will you have the 
statistics?
    Mr. Stevens. [No audible response.]
    Senator Tester. It should be pretty easy, quite frankly, 
because I am sure you have a database of expenditures. Could 
you just get me that information? That would be great.
    Cheryl, and this not only could go to Cheryl, it could go 
to any of the tribal leaders, the issue of sovereignty is a big 
issue in Indian Country. And it is a real issue and it is an 
issue that is important to Native Americans, I know for a fact, 
because I hear about it a lot.
    You have a situation where, and it is not with all tribes, 
just some tribes, where investors and business do not feel like 
they have adequate recourse through the courts because there is 
a lot of turnover when there is a turnover on the Council. 
Oftentimes the courts turn over too.
    Is there a solution for this? Because I think part of the 
bill, 3261, part of its goal is not only to work with 
entrepreneurs, but also work with tribes, to let them 
understand from a business perspective what kind of 
infrastructure they need to put in place to be successful.
    Could you touch on that a little bit? Because I think if we 
are impeding upon sovereignty, it is over with, it isn't going 
anywhere. By the same token, there are some things we can do to 
help move forward. And I can give you examples of tribes who 
are very successful in business, because there is 
predictability, and ones that aren't successful at all, because 
there is a lack of predictability.
    Ms. Andrews-Maltais. Sovereignty does play a very large 
role. Each tribe has the ability to waive their sovereignty, 
depending upon what the tribal constitutions or structures 
provide for for businesses. That is also one of the reasons why 
we wanted to work with the Committee and the drafters, in order 
to develop something that is more universal that tribes can 
elect. Because by exercising their sovereignty, they can elect 
to participate in something or not participate. By having some 
sort of universal codes or structures for trade and commerce in 
Indian Country, that should be able to alleviate some of the 
concerns that these investors have.
    But it is complicated, but it is certainly something that 
the Department, as well as the tribes and obviously the 
Committee is committed to finding some sort of resolution on 
this.
    Senator Tester. It is good. I mean, the thought has 
occurred to me and this is off topic for what we are doing 
today, with entrepreneurship, but the thought has occurred to 
me that if there was some sort of sharing of information 
between the tribes on what each tribe is doing that they have 
been very successful at, maybe through one of the tribal 
organizations, it could be a big help.
    Along those same lines, training personnel for technical 
assistance for entrepreneurship is critically important. Are 
there enough resources being provided right now for Native 
entrepreneurs?
    Ms. Andrews-Maltais. There is never enough money in Indian 
Country to do what it is that we need to do. However, with the 
resources that we have, we have been putting as many, training 
as many people as we can. But this incubator bill, as it is, we 
are hoping that by utilizing not only the resources in the bill 
to set up the incubators themselves, but part of those 
agreements would also include the training for other people to 
learn how to help impart business knowledge that is necessary 
and use this as a starting point to develop more and more 
people for technical assistance.
    Senator Tester. Yes, I just think it is really, really 
important. We do it off-reservation all the time. In Montana, 
for example, with unemployment on the reservations north of 50 
percent, on most if not all, and sometimes significantly north 
of 50 percent, I think it could be good. Thanks for your 
testimony.
    Harvey, you guys are in the same boat as the Little Shell 
in Montana. There are some things with recognition that are 
obvious, access to programs, that can help your tribe. Are 
there things that we are not thinking about, if you were to get 
recognition, that would help your tribe and tribal members, 
other than the programs you would have access to at the Federal 
level?
    Mr. Godwin. Thank you, Senator Tester. I would like to say 
first that you spoke earlier about public education and how 
important it is. My wife is a school teacher, art teacher in 
high school. My mother is a retired school teacher, for 33 
years. She is 90 now. My sister is a school teacher, all my 
aunts and uncles are school teachers. And that was the 
educational saving grace for our family, and for many families, 
because of our origin from 1888, from Indian Normal School.
    But for the Lumbee, we are a little bit fortunate in the 
line of questioning you are asking now. Because we have Lumbee 
Bank, that has been in place since the early 1970s. And 
entrepreneurs, Lumbee tribal entrepreneurs, started this bank 
in the early 1970s, and they have a great lending relationship. 
That is what my background comes from, is partnerships. You can 
turn your tribal council over, but if you create true business 
partnerships, that is going to stand the test of time, no 
matter who is on the council or who is not.
    The Lumbee Tribe has recently partnered with Campbell's 
Soup to start a Lumbee tribal community garden in our culture 
center. And we partnered with Wal-Mart for the first time, to 
help us with our pow-wow. So there are business partners out 
there that we have been fortunate to partner with on our own.
    But with full Federal recognition, that would certainly 
leverage by many times over for the Lumbee Tribe to be able to 
build on the relationships that we currently have.
    The Little Shell Tribe is, I think, known as the Homeless 
People, have been for a long time. They have been in the 
acknowledgement process for 28 years. Well, between 1888 and 
1956 was 68 years. I am sad to say right today, is the 60 year 
anniversary since the 1956 bill.
    I guess what hurts a lot is, you start talking about 
cultural self-esteem, where your membership doesn't feel like 
they have opposition. Other tribes oppose us to this 
recognition. We used to say, it is about the money. It is about 
the money. I don't think I believe that anymore. I think it is 
a little bit about discrimination, because federally-recognized 
tribes don't see the Lumbee as real Indians. And that is 
hurtful. It is traumatic, and it is very hurtful to our people, 
to our children coming up. They look at each other and say, 
well, there is a real Indian, because they're from another 
tribe that is federally-recognized.
    Growing up like I was, you watch a western and you want to 
be the cowboy instead of the Indian. Because we have been 
denied our true identity.
    I go back to the Civil War. And you have seen the film, 
Lincoln. In that movie, there was a place that was talked about 
a lot, Fort Fisher, a fort in North Carolina, where I am from, 
an hour and a half from Fort Fisher. Still stands today. During 
the Civil War, our people were challenged by the U.S. 
Government that wanted to annihilate us with the rest of the 
southerners in the Confederacy. And the Confederacy was 
kidnapping our young people, our young men, and driving them as 
free labor to Fort Fisher. Malaria, getting shelled on, getting 
killed with the Confederate soldiers.
    And if you go there today, there is not one sentence there 
about the Lumbee people and their forced labor there. See, we 
have overcome those kinds of challenges. We have overcome 
discrimination from other tribes. We have overcome not being 
fully federally-recognized on 1956 because we made the decision 
that we were going to decide who were are.
    Senator Tester. Thank you. Thank you all for your 
testimony. I appreciate it very, very much. I have already used 
twice as much time as I was allocated, and I appreciate the 
Chairman giving me that flexibility. Thank you.
    The Chairman. Thank you, Mr. Vice Chair.
    Mr. Watchman, the ISAC proposes to create this Indian 
Economic Development Fund. We talked about it, the fund would 
allow tribes to voluntarily contribute to the Treasury to 
establish the credit subsidy for eligible community develop 
institutions that then financially serve the Indian 
communities. This idea isn't new.
    What types of incentives can you think of beyond just good 
will that you think would make it attractive for tribes to 
continue to contribute to this kind of proposed fund?
    Mr. Watchman. Mr. Chairman, thank you for the question. 
There are a couple of incentives that come to mind. Obviously 
you have the tribes that have some resources to invest. There 
are maybe some other concerns, so perhaps some tax credits for 
those relationships that tribes have with businesses. In my 
area we deal a lot with the coal mining companies, the oil and 
gas companies. So perhaps some type of tax incentive or credits 
for them if they do invest in such a fund.
    On the tribal side, since tribes are tax-exempt, a tax 
credit won't be beneficial. But that is the one thing that 
comes to mind, is a tax credit for a related entity to get some 
type of reduction in taxes. That is the first thing I can think 
of.
    That is probably all I have at this point, that is the big 
thing. You need to look at those partners that do have 
resources available.
    The Chairman. The Buy Indian Act, and then the Small 
Business Section 8(a) program require purchases of goods and 
services, as you know, from Indian and other minority 
businesses under certain circumstances. Some of the businesses 
that qualify as a Buy Indian Act business may not qualify as an 
8(a) business and vice versa.
    So the Department of the Interior has recommended adding 
language to S. 3234, the ICE bill, to allow reporting of Buy 
Indian Act actions through the Section 8(a) program. How do you 
think that those two procurement requirements should be 
reconciled? What do you think we ought to do about that?
    Mr. Watchman. I am familiar somewhat with the 8(a). So it 
is a program where a small, Indian-owned concern can give its 
designation and you have a time period. Once you reach a 
certain amount in sales, then you graduate and move into a 
different program. So there is a lot of reporting behind that. 
To be simply an Indian-owned company, obviously you have to 
verify that you are Indian-owned. So there are data bases, 
there are ways to track these programs. I think it is possible.
    The biggest issue, from my experience, is that in all these 
programs, and I have it too, we have all these folks that are 
out there charged with purchasing. So a lot of them have, not 
their favorites, but they know what is reliable. So to go and 
find a new vendor, that is always a challenge. You have to test 
them to make sure they are reliable, they have enough capital. 
If it is Indian-owned, do they have enough capital, do they 
have loans? If they need a loan, is it backed by an Indian loan 
guarantee? So it is the reliability of these companies.
    But there are ways to track it. When I was involved at the 
Department of Energy at one time, we were working on how to 
track that. So by having the data in front of all these folks 
that are in charge with million dollar contracts to say, this 
is the possibility, I think it will work. By tracking, it gives 
them recognition so they say, even though there is a 
suggestion, if you have a mandate, you have to buy Indian, I 
think that is one step in many that could be done.
    The Chairman. Cheryl, anything you would like to add on 
that?
    Ms. Andrews-Maltais. Exactly. That is one of the reasons 
why we are looking to add additional language, to incorporate 
the 8(a), and also maybe broaden that through, beyond the 
Indian Health Services and the Department as an option. I agree 
totally with the tax credits. We would be happy to provide some 
recommendations, or additional recommendations to reach that 
goal of trying to make it comport, or balance with the Buy 
Indian Act. The specificity of the standard the companies have 
to maintain doesn't always comport with them being able to be 
included in that data. That is one of the reasons why we wanted 
to broaden that definition's perspective.
    The Chairman. Vice Chairman McDarment, in your written 
testimony, you talk about the physical location and description 
of your reservation. The Tule River Indian Tribe's reservation 
is situated on the western foothills of the Sierra Nevada, 
mountains near the Sequoia National Forest. Can you explain how 
placing these 34 acres of land into trust is going to benefit 
your tribe? Number two, is the nearest town supporting the 
placing of this land into trust?
    Mr. McDarment. There is no opposition from the neighboring 
town. The benefit to the reservation by acquiring these 34 
acres is that it is the main entrance to the reservation. There 
are a couple other entrances, on the very top of the 
reservation, which are inaccessible during the winter time, or 
even just certain parts of the year. So it is the main paved 
entrance to the reservation.
    The Chairman. Thank you.
    There are no other questions for today. Members may still 
submit follow-up written questions that you may receive over 
the next week or so. The hearing record will be open for two 
weeks. I want to thank all of you for being here today, for 
your time and your testimony.
    The hearing is adjourned.
    [Whereupon, at 4:06 p.m., the hearing was adjourned.]

                            A P P E N D I X

  Prepared Statement of Neal McCaleb, Ambassador at Large, Chickasaw 
                                 Nation
    My name is Neal McCaleb, Ambassador at Large for the Chickasaw 
nation and former Assistant Secretary of the Interior for Indian 
Affairs. I appreciate the opportunity to submit this testimony relative 
to SB 3234 (ICE) and to enthusiastically support the intent and 
language of this legislation.
    While I endorse each and every section of the proposed Bill as 
needed and effective remedies to the substandard economic environment 
in ``Indian Country''. My comments will deal specifically with Section 
4 on the ``Buy Indian Act'' which has a one hundred year history of 
Congressional affirmation however it has been ineffective implemented 
to the detriment of Indian enterprise and individual economic and 
social advancement.
    The Government Accounting Office in its report to Congress in July 
of last year on the implementation of the ``Buy Indian Act'' made it 
abundantly clear that the Department of the Interior has fallen far 
short of Congressional intent for the application of this long standing 
legislation and unique purchasing authority. This Act seeks to improve 
the extent of the application of the Buy Indian Act in Section 4 a 
systematic biannual report to Congress on the efficacy and extent of 
the Departments use of this Act.
    The current regulations for the application of this authority are 
limited to Bureau of Indian Affairs and the Indian Health Service or 
other agencies and divisions of the Interior Department that maybe 
authorized at the discretion of the Secretary of Interior. So far this 
discretion has not been extended beyond the BIA in Interior 
notwithstanding the clear authority to apply it, if not the obligation 
to ensure implementation of the Buy Indian Act to all Agencies, Bureaus 
and Offices of the Department of the Interior that have a direct impact 
Indian Tribes.
    The secretary of Interior has identified several agencies in 
Interior which have a Trust responsibility to Indian Tribes. These are 
the Bureau of Land management, Bureau of Reclamation, Fish and Wildlife 
Service and the National Park Service.
    I propose that this legislation be amended to include direction to 
the Secretary of Interior to apply the Buy Indian Act to all agencies 
within the Department of Interior which impact Indian Tribes and/or 
exercise Trust responsibilities to individual Indians.
    This provision to expand the application of the buy Indian Act will 
have salutary effect of Tribal economies and individual Indian economic 
enterprise. From my personal experience in the mid 1970s I witnessed a 
remarkable upsurge Indian owned professional engineering and 
architectural practices when the BIA division of Construction and 
Maintenance in Albuquerque began to apply the Buy Indian Act to the 
acquisition of professional design services which are exempted from 
competitive bidding by the ``Brooks Act''. The Buy Indian Act is one of 
the few business development mechanisms that applies equally to 
individually owned Indian Economic Enterprise as well as Tribally owned 
enterprises and its expansion will stimulate greater investment and 
opportunity in Indian Country.
    Thank you for the privilege of submitting these brief comments on 
this important legislation.
                                 ______
                                 
    Prepared Statement of Leonard Smith, Executive Director, Native 
                American Development Corporation (NADC)
Introduction
    Chairman Barrasso, Vice Chairman Tester and members of this 
Committee, my name is Leonard Smith and I am the Executive Director of 
the Native American Development Corporation (NADC), located in Billings 
Montana. I thank you for the opportunity to present testimony on Native 
American economic development issues. My comments today focus primarily 
on S. 3234, and its provisions, however, our NADC Board supports the 
intention and scope of both S. 3234 and S. 3261. From our Board's 
perspective both bills seek to address needed funding and programs in 
Indian Country to better promote successful business development 
opportunities.
    The NADC is a non-profit corporation that provides a range of 
training, technical assistance and capital services to Tribes, Tribal 
enterprises and individual American Indian Communities and firms in 
Montana, Wyoming, and North and South Dakota. Some of the services NADC 
provides includes: housing, business start-up and expansion, project 
financing/funding, business plans, feasibility studies, and project 
management. NADC is a certified Native Community Development Financial 
Institution (CDFI) established in 1996 by tribal enterprise business 
managers in Montana and Wyoming in collaboration with the Montana 
Indian Manufacturers Network Board of Directors.
    I am an enrolled member of the Assiniboine Sioux Tribe of Fort Peck 
Indian Reservation in northeastern Montana. I have a bachelor's degree 
in Business Administration from Montana State University--Billings with 
over 25 years of experience as a business owner, Chief Executive 
Officer of a tribal enterprise, Deputy District Director of the Montana 
Small Business Administration Office, Assistant Vice President of 
Indian Credit Corporation, and Loan Officer of a Tribal Business 
Development Office. Most of my career has been in the realm of Native 
or Tribal economic development.
Comments on S. 3234 the Indian Community Economic Enhancement Act of 
        2016
    Indian Loan Guarantee Program: As the National Center testified, 
the Indian Guarantee Loan Program has been underfunded and delays make 
the program not useful to those who need quick or immediate assistance 
for their business. We saw that the FY 2017 Presidential Budget Request 
omitted any increase to the funding of the Indian Energy Loan Guarantee 
Program. And the Department of Agriculture's loan guarantee program has 
also lost ground. We believe credit subsidy funding found in Energy 
Appropriations for FY 2017 for the Indian Energy Loan Guarantee program 
may provide relief, but we believe the only real fix will be more 
direct appropriations for loan guarantee programs that benefit Indian 
Country.
    Buy Indian Act: NADC has been instrumental in the Rocky Mountain 
and Great Plains service area in the support and strengthening of the 
Buy Indian Act. In May of 2010, NADC organized an economic development 
and procurement conference with top level Bureau of Indian Affairs 
(BIA) staff in attendance. A Buy Indian Act breakout session was on the 
agenda with many local contractors in attendance. These contractors 
raised questions directly to the BIA officials on the lack of a 
required regulatory process for the use of the Buy Indian Act thereby 
rendering it useless to them. This discussion contributed to tribal 
consultations with the BIA nationwide in developing regulations for the 
Buy Indian Act. By July 2012 regulations were in the Federal Register 
and being implemented. As a Regional Procurement Technical Assistant 
Center NADC has worked closely with the BIA Rocky Mountain Regional 
procurement staff to promote and support Indian Economic Enterprises. 
The Bureau of Indian Affairs has made progress in strengthening the Buy 
Indian Act and we hope that the Indian Health Service will follow suit 
by adopting updated regulations similar to the BIA's. NADC appreciates 
the language included in Section(s) 4(b)-(d), we believe the Buy Indian 
Act could work as a socio-economic set-aside as a Procurement goal with 
the U.S. Small Business Administration applicable to all federal 
agencies. In addition technical assistance and an educational campaign 
for Indian Economic Enterprises and Federal Government employees should 
be developed for implementation of the procurement goal.
    Native American Business Development, Trade Promotion, and Tourism 
Act of 2000: The NADC strongly supports elevating and enhancing the 
Department of Commerce Office of Native American Business Development 
by making its Director report directly to the Secretary of Commerce. It 
is important that this Office have the authority to coordinate the 
activities of Commerce and other key departments, to ensure timely 
assistance and consultation with Indian Tribes. This is especially true 
to assist with the administration of the CDFI Fund programs that 
encourage investments in Indian Country. We also support the 
establishment of an Indian Economic Development Fund in the Treasury of 
the United States. The purpose of the fund would be to increase the 
existing credit subsidies of the Indian Loan Guarantee Program and 
provide subsidy solely for any eligible CDFI that applies for financing 
under the CDFI Fund bond guarantee program. We are concerned however, 
that a study of the mechanism to support these increases would only 
delay badly needed funding, the need for this funding has already been 
studied and found severely lacking. We therefore recommend direct 
appropriation to ensure funding. A small increase in funding could 
leverage millions in private sectors funds.
    Native American Programs Act of 1974: We support the purpose and 
goals of S. 3234; which are to increase access to capital for Tribes 
and Indian businesses, increase opportunities for Indian business 
promotion and create mechanisms and tools to attract businesses to 
Native communities.
    S. 3234 seeks to provide a permanent waiver of cost sharing for 
Native CDFIs, require Tribal consultation regarding increasing 
investment in Native communities, and provide a requirement between the 
Secretaries of Treasury, Interior and commerce to coordinate between 
agencies in the development of Indian Country programs.
    The economic conditions on the reservations in Montana, Wyoming 
North and South Dakota cause many challenges for Native businesses. The 
reservations experience persistent poverty (double the statewide 
average), and unemployment rates three to five times the state average. 
And poverty rates for Native Americans in Montana were at 30 percent in 
2010, triple the state rate of 9.7 percent. A significant restraint for 
economic growth and development in Native American communities has been 
a lack of access to capital and credit.
    Because they are such important economic engines in the markets 
they serve, Native CDFIs in the Great Plains and Rocky Mountain Regions 
are constantly looking for increased access to operating and lending 
capital to be able to expand their services to their customers. Native 
American Development Corporation is proud to be one of four Native 
CDFIs operating in Montana. We are a certified CDFI that provides loans 
and equity-like loan products to businesses owned by, serving, and 
creating jobs for Native American people on and off the reservation. We 
also provide technical assistance to Native business owners to help 
them be more successful entrepreneurs and to access government 
contracts.
    Native CDFIs have become vital to building and sustaining Native 
Communities' local economic momentum and represent a key private sector 
approach to Native Nation self-sufficiency. Native CDFIs are private-
sector, financial intermediaries with community development as their 
primary mission. They are market-driven, locally-controlled, private-
sector organizations. CDFIs measure success by focusing on the ``double 
bottom line:'' economic gains and the contributions they make to the 
local community.
    In the short term, Native CDFIs are filling the credit and capital 
gaps in Indian Country left by traditional lenders and investors. In 
the long term, they are grooming Native consumers, entrepreneurs, and 
potential homebuyers to access traditional lenders in the future. They 
have been working to create innovative solutions to overcome economic 
development barriers, and they have proven themselves as vehicles 
towards developing healthy, vibrant Native economies and communities. 
They have entered markets normally considered ``high-risk'' and have 
been responsible for an astounding transformation--serving as the 
catalyst for developing local economies, building assets, and reducing 
persistent poverty.
    NADC strongly supports making CDFI's eligible to apply for 
Administration for Native American's (ANA) economic development program 
grants, prioritize economic development grants for certain types of 
applications and prioritize any technical assistance for grantees and 
applications submitted under this legislation. We support the Bill's 
intent to encourage ANA to support grants to develop, tribal codes and 
court systems relating to economic development, non-profit subsidiaries 
and other tribal business structures, and tribal master plans for 
community and economic development and infrastructure
Comments on S. 3261 the Native American Business Incubators Program Act
    The NADC has long supported programs that foster and support Native 
American small businesses. NADC has been able to implement funding 
partnerships with the Montana Indian Business Association and various 
agencies to provide start-up and expansion services to Native owned 
businesses in Indian country. NADC therefore endorses S. 3261 for its 
innovative response to the great need to foster Native businesses and 
entrepreneurs. S. 3261 would establish a program in the Office of 
Indian Energy and Economic development under which the Secretary of 
Interior would provide financial assistance through competitive grants 
to eligible applicants for the establishment and operation of business 
incubators that serve reservation communities. The legislation would 
allow various eligible applicants including non-profit organizations 
that could provide services to Native business and Native 
entrepreneurs, a vision long shared by NADC.
Conclusion
    Thank you for the opportunity to submit testimony to the Committee 
on the issues that could have a tremendous impact on the future of 
economic development in Indian Country. We look forward to working with 
the Committee in the future to address significant provisions and to 
advance enactment of both S. 3234 and S. 3261.
                                 ______
                                 
Prepared Statement of William Snell, Executive Director, Rocky Mountain 
                         Tribal Leaders Council
    The Rocky Mountain Tribal Leaders Council (RMTLC) is an eleven-
member tribal association comprised of tribal governments from Montana, 
Wyoming and Idaho. Its mission is dedicated to improving the health, 
economic development and education for tribes and their members through 
a variety of programs, policy recommendations, and tribal leaders' 
meetings. The RMTLC also endeavors to coordinate the similar interests 
of member tribes through various collaborative initiatives and 
projects.
    I would like to take this opportunity to thank Senator Jon Tester, 
Senator Maria Cantwell and Senator Tom Udall for the introduction of 
Senate Bill 3261--The Native American Business Incubators Program Act. 
As with other racial and ethnic groups, economic opportunity and 
prosperity are major drivers to the social, educational and political 
stability of Native Americans. Every senator on this committee is very 
well aware of the multiple challenges facing Indian Country in their 
pursuit of small business ownership and entrepreneurship. But we are 
not without hope, for conditions can be established and sustained by 
which new and existing American Indian entrepreneurs can be successful.
    While we as tribal governments and as a people have been 
geographically and culturally isolated, we seek economic development to 
not only uphold our political sovereignty but also our cultural 
sovereignty. Indian Country need not be forced to choose between 
dependent poverty or middle class assimilation. Rather we seek to 
determine our own economic future and note that all labor has dignity 
and importance. None of us should believe that what we do does not 
matter or what we do only matters.
    The overriding concern that presents itself in Indian Country, and 
what this legislation seeks to address, is the absence of fully 
functioning economies on far too many reservations. This is caused by 
an absence of small businesses and the fact that Indian Country owns 
private businesses at the lowest per capita rate for any ethnic or 
racial group in the United States. Notwithstanding the positive 
economic developments in Indian Country since the advent of Indian 
gaming, one need not have to travel to third world countries to 
experience third world hunger, poverty, disease, addiction, housing, 
medical care, or unemployment. They exist here in the states that you 
call home. They are your islands of poverty amidst a sea of plenty. We 
all breathe the same air--can't we all be afforded the same chance?
    While economic opportunity should be afforded to all Americans, an 
examination of this legislation and the historical economic literature 
and lessons involving Native American entrepreneurs also reveal unique 
impediments in starting, locating and operating a business. While 
noting that the journey of a thousand miles begins with single step we 
applaud the sponsors of this legislation for highlighting the need to 
address the lack of access to capital, geographic isolation, the need 
for educational development and technical training, measuring and 
enforcing accountability through oversight, poor physical 
infrastructure, networking opportunities, and the all too often 
difficult state regulatory interaction with tribal governments and 
tribal members.
    In addition to the above, in order for entrepreneurial endeavors to 
be successful, a few key issues need to be continually reinforced and 
highlighted today as we move forward on the problem this legislation 
seeks to address. These include the need for first rate research that 
gives us solid evidence of what works and what does not in this effort. 
We cannot continue to fly blind as we are forced to choose among the 
alternative spending constraints that the two political parties have 
annually sought to enforce on one another, for all too often it is 
those who exist in the shadows of our society that disproportionately 
suffer most from these alternative budgetary realities.
    What is extremely important for this legislation is that government 
leaders need a new and more mentally rigorous way to make decisions 
about the success or failure of public policy initiatives and the need 
for more public policy experimentation. As has been noted before by 
renowned management consultant W. Edwards Deming that ``if you can't 
measure it you can't manage it.'' In order to have an impact on the 
long term challenges facing Indian Country, more must be done to drive 
resources toward high-impact solutions that get results. Indian Country 
greatly needs evidence, we need data, we need investment in research so 
that we can enforce accountability and demonstrate effectiveness for 
our people. We need to focus on outcomes and lives changed, rather than 
simply compliance and numbers served. Then we will be able to tell our 
children success stories. Then we can elevate hope and we can provide 
them a way out of this cycle of poverty and despair. Then we can much 
like the first United States Attorney General to visit a Native 
American reservation, when asked in an interview shortly before he was 
killed what he would like his obituary to read he replied. . .''I would 
like to feel that I had done something to lessen the suffering of 
children.''
    We know that faith is taking the first step even when you can't see 
the whole staircase. Having faith and taking risks are necessary 
components to economic success but those risks must be informed and 
evidence-based risks. We know that no matter how lofty or how common 
one's profession is, one should do it with honor and pride. But we 
refuse to believe as Dr. King stated that there are insufficient funds 
in the great vaults of opportunity in this nation. This incredibly 
bountiful country has the resources but there have always been other 
more immediate or emerging priorities. We are still waiting like Chief 
Joseph to be brothers of one father and one mother, with one sky above 
us. We will proceed on this essential journey with you, for change is 
what dominates our world. We know more than any other people that 
unless we move with change we will become its victims.
    Thank you for the honor of allowing me to appear before you today 
and to hear my words of truth to you. I am available for any questions 
you might have.
                                 ______
                                 
   Prepared Statement of United South and Eastern Tribes Sovereignty 
                            Protection Fund
    The United South and Eastern Tribes Sovereignty Protection Fund 
(USET SPF) is pleased to provide the Senate Committee on Indian Affairs 
(SCIA) with testimony for the record of its legislative hearing on: S. 
2285, the Lumbee Recognition Act, S. 3234, the Indian Community 
Economic Enhancement Act of 2016, S. 3261, the Native American Business 
Incubators Program Act, and H.R. 4685, the Tule River Indian 
Reservation Land Trust, Health, and Economic Development Act. The 
following testimony will address three of the four bills, as USET SPF 
defers to others with greater knowledge on H.R. 4685, especially the 
Tule River Tribe of California.
    USET SPF is a non-profit, inter-Tribal organization representing 26 
federally recognized Indian Tribes from Texas across to Florida and up 
to Maine. \1\ USET SPF is dedicated to enhancing the development of 
Tribal Nations, to improving the capabilities of Tribal governments, 
and assisting member Tribal governments in dealing effectively with 
public policy issues and in serving the broad needs of Indian people.
---------------------------------------------------------------------------
    \1\ USET SPF member Tribal Nations include: Alabama-Coushatta Tribe 
of Texas (TX), Aroostook Band of Micmac Indians (ME), Catawba Indian 
Nation (SC), Cayuga Nation (NY), Chitimacha Tribe of Louisiana (LA), 
Coushatta Tribe of Louisiana (LA), Eastern Band of Cherokee Indians 
(NC), Houlton Band of Maliseet Indians (ME), Jena Band of Choctaw 
Indians (LA), Mashantucket Pequot Indian Tribe (CT), Mashpee Wampanoag 
Tribe (MA), Miccosukee Tribe of Indians of Florida (FL), Mississippi 
Band of Choctaw Indians (MS), Mohegan Tribe of Indians of Connecticut 
(CT), Narragansett Indian Tribe (RI), Oneida Indian Nation (NY), 
Passamaquoddy Tribe at Indian Township (ME), Passamaquoddy Tribe at 
Pleasant Point (ME), Penobscot Indian Nation (ME), Poarch Band of Creek 
Indians (AL), Saint Regis Mohawk Tribe (NY), Seminole Tribe of Florida 
(FL), Seneca Nation of Indians (NY), Shinnecock Indian Nation (NY), 
Tunica-Biloxi Tribe of Louisiana (LA), and the Wampanoag Tribe of Gay 
Head (Aquinnah) (MA).
---------------------------------------------------------------------------
The Indian Community Economic Enhancement Act of 2016
    For years, USET SPF and Tribal Nations and organizations across the 
country have called for legislation to address numerous barriers to 
comprehensive economic development in Indian Country. That is why we 
were pleased to learn of Chairman Barrasso's introduction of S. 3234, 
the Indian Community Economic Enhancement Act of 2016 (ICE). USET SPF 
extends our appreciation the Chairman for his willingness to take on 
the expansive and substantial issue of economic development, and fully 
supports the intent of S. 3234.
    We support many of the provisions within S. 3234, as well. The 
permanent waiver of matching funds for Native Community Development 
Financial Institutions (CDFIs) is long overdue and a welcome provision 
in the bill. USET itself is in the process of establishing the first 
Native CDFI to service its entire region, and the permanent waiver will 
be of enormous assistance to this effort. In addition, we welcome the 
opportunity for Native CDFI's to access grants through the Native 
American Programs Act that would provide CDFI's with the opportunity 
for development and maintenance, and allow them to provide assistance 
to Tribal Nations in the development of Tribal law and court systems, 
as well as Tribal master plans.
    Repeal of the ``essential government function'' test in the Tribal 
issuance of tax-exempt bonds is a critical step forward in the pursuit 
of parity within the tax code for Tribal Nations. USET SPF strongly 
supports this provision.
    We also offer our support for the elevation of the Director of the 
Office of Native American Business Development. Providing direct access 
from this position to the Secretary of Commerce will assist in the 
removal of some of the barriers described in the ``Findings'' section 
of the bill.
    Further, USET SPF is supportive of amendments to the Buy Indian Act 
that would require the Bureau of Indian Affairs and the Indian Health 
Service to certify that procurement from Indian businesses is not 
practicable before purchasing outside Indian Country. We also look 
forward to the issuance of a biannual report from the Departments of 
Health and Human Services and Interior regarding the implementation of 
the Buy Indian Act.
    While USET SPF believes that S. 3234 provides a variety of much 
needed change in policy and law, we note that there are a number of 
opportunities for improvement within the bill as introduced. With this 
in mind, we support the testimony provided by the National Center for 
American Indian Enterprise Development, and others, including the 
Native American Finance Officers Association. In addition, we provide 
the following section-specific comments designed to strengthen ICE's 
impact for Tribal Nations:

  <bullet> Section 2. Findings.

         While the Findings section as drafted does describe many 
        existing barriers to economic development in Indian Country, 
        USET SPF notes a major omission: taxation. Through inequities 
        in the tax code as well as state dual taxation, revenue 
        generated within Indian Country continues to be taken outside 
        its borders or otherwise falls victim to a lack of parity. 
        Moreover, Tribal governments continue to lack many of the same 
        benefits and flexibility offered to other units of government 
        under the tax code. We strongly encourage the addition of 
        language within the Findings section that acknowledges and 
        seeks to lift these deep inequities. For your consideration, we 
        propose the addition of the following:

         (1)(A) The U.S. Constitution vests the Congress with the 
        authority to regulate commerce with the Indian tribes.
         (B) Under its Indian commerce authority, the Congress has 
        enacted federal laws promoting Indian self-determination, 
        economic development, and strong tribal governments.
         (C) Promoting Indian self-determination requires that the 
        Secretary of the Interior recognize the tribal governments' 
        authority to regulate and license business entities and 
        commercial activities within Indian Country.
         (D) Achieving Indian self-determination will not be possible 
        until barriers to economic development are eliminated.

         [The current Findings subsection (1)(A) would be renumbered 
        (2)(A) (and the subsequent numeration would change accordingly]

         [With regard to the barriers to economic development in 
        Findings subsection (1)(A) (now numbered (2)(A)), USET SPF 
        recommends inserting new roman numerals iv and v (and renumber 
        current iv as vi) as follows:

         iv. The uncertainty of case-by-case adjudication has invited 
        conflict with other governments over regulatory authority and 
        impeded the development of tribal capacity to regulate 
        commercial activity and exercise sovereign authority over 
        fiscal policy in Indian Country.
         v. Lack of jurisdictional clarity often exposes business 
        activity to multiples layers of regulation, assessment and 
        costs.

  <bullet> Section 3. Community Development.

    Again, while USET SPF supports much of the language in this 
section, we note the absence of additional provisions addressing issues 
related to taxation. Although we recognize that the addition of a high 
number of taxation provisions could have resulted ICE being referred 
outside of SCIA's jurisdiction, we reiterate the urgent need for 
comprehensive tax reform in Indian Country. The provision repealing the 
``essential government function'' test for tax-exempt bond financing 
appears in a much larger Indian Country tax reform bill on the House 
side, H.R. 4943, the Tribal Tax and Investment Reform Act, a bill that 
does not currently have a companion in the Senate. As such, we urge 
SCIA to work with the Senate Finance Committee on the introduction of a 
companion bill for possible inclusion in ICE.
    In addition, we strongly recommend the inclusion of an amendment to 
the Native American Business Development, Trade Promotion, and Tourism 
Act like that which was included in H.R. 4699, the Indian Country 
Economic Revitalization Act, introduced by Rep. Suzan DelBene during 
the 113th Congress. H.R. 4699 requires a regular report from the 
Secretary of Commerce that includes:

        --data on Indian business development and employment during the 
        preceding 3-year period, except for the first report which is 
        to include data from the preceding 10 years;
        --an assessment of existing structural advantages and barriers 
        to the economic development of Tribal Nations and lands;
        --an analysis of Indian access to adequate infrastructure, 
        affordable energy, educational opportunities, and investment 
        capital; and
        --recommendations on legislation to strengthen the economies of 
        Tribal Nations and lands in areas that include regulatory, tax, 
        and trust reform.

    This type of data would provide a more accurate picture of the 
status of economic development in Indian Country, which would aid in 
advocacy efforts, as well as provide the Administration and Congress 
with the opportunity to understand how policy affects Tribal Nations 
and areas for improvement.

  <bullet> Section 4. Buy Indian Act.

    As a part of the reporting described under this section in ICE, 
USET SPF recommends regional, in addition to national, reports. 
Regional reporting would provide the type of information needed for 
Tribal Nations and organizations, like USET SPF, to work with regional 
offices to increase implementation of the Buy Indian Act amendments.

  <bullet> Section 5. Indian Trader Act.

    USET SPF recommends amendments to the Indian Trader Act to reflect 
the Federal Government's commitment to the policy of Indian Self-
Determination and in order to address changes in the manner in which 
commerce and government regulation operate in Indian Country since the 
Act was passed in 1876. Additionally, the delegation of congressional 
authority to the executive branch should be updated to reflect that the 
Department of Interior no longer employs a ``Commissioner.'' USET SPF 
proposes the following amendment to Section 5 of the Act of August 15, 
1876 (the Indian Trader Act), which would replace the existing 
legislative language:

         (a) IN GENERAL. The Secretary of Interior shall have the sole 
        power and authority to regulate trade and commerce on Indian 
        lands and to make such rules and regulations as necessary to 
        promote Indian commerce and maximize the generation of revenues 
        in Indian Country.
         (b) SELF-DETERMINATION--With the approval of the Secretary of 
        Interior, Indian tribes shall have the authority under 
        subsection (a) to enact tribal laws to govern licensing, fees, 
        assessments, taxes and other charges with respect to trade and 
        commerce on Indian lands.
The Native American Business Incubators Program Act
    S. 3261, the Native American Business Incubators Program Act, would 
establish a grant program to provide financial assistance for the 
establishment and operation of business incubators serving Tribal 
communities within the Department of the Interior. The growth and 
diversification of Native businesses within Indian Country is critical 
to economic sovereignty, self-determination, and Nation rebuilding. We 
agree that Native business owners face unique and greater barriers to 
economic success than many of their peers. USET SPF strongly supports 
this legislation as an opportunity to create jobs and strengthen Tribal 
economies, particularly in the USET SPF region. We further support the 
necessary authorization of funding for this program and appreciate 
attempts to ensure that S. 3261 is not implemented at the expense of 
other equally necessary programs at Interior. We thank Vice Chairman 
Tester for the introduction of this legislation and look forward to its 
enactment.
The Lumbee Recognition Act
    USET SPF, as indicated through previous Congressional testimony and 
organizational resolutions, supports the use of the Federal 
Acknowledgement Process (FAP), administered by the Department of the 
Interior, for determining whether Indian groups should be federally 
recognized. This method, based upon criteria recommended by the 
American Indian Policy Review Commission, provides for an orderly 
process, administered by experts, such as ethno-historians, 
genealogists, anthropologists, and other technical staff.
    On October 23, 1989, William Lavell, Associate Solicitor for Indian 
Affairs, issued an opinion stating that federal law bars the Lumbee 
group from going through the FAP process due to the June 7, 1956 Lumbee 
Act. The Act prohibits the Lumbee from receiving, ``any services 
performed by the United States for Indians because of their status as 
Indians.'' With this in mind, USET SPF strongly supports legislation 
that would overturn this prohibition, if necessary. This would allow 
the Lumbee to access the FAP, from which they have been unfairly 
excluded.
    In the past, Congress has considered and rightly rejected numerous 
Lumbee recognition bills. USET SPF encourages Congress to again reject 
Lumbee recognition via Act of Congress in S. 2285. Rather, Congress 
should consider legislation that would offer a fair remedy to the 
barriers created by the 1956 Lumbee Act, and allow Lumbee recognition 
to be reviewed by the Department of the Interior.
Conclusion
    USET SPF appreciates the opportunity to submit testimony on these, 
and other bills, before the SCIA. We remain committed to working with 
the Committee to preserve, protect, and advance the sovereignty of 
Tribal Nations within the USET SPF region and across the country.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Al Franken to 
                            Derrick Watchman
Impediments to small business development in Renewable Energy Sector
    Senator Franken, as you know from my testimony at the Committee's 
hearing on September 7, 2016, I serve as Chairman of the Board of 
Directors of the National Center for American Indian Enterprise 
Development. All of the National Center's Board members and staff have 
long been dedicated to removing impediments and enhancing opportunities 
for business development in Indian Country, including improving access 
to capital so desperately needed for investment in business, economic 
and energy development in Indian communities across the United States.
    As I noted in my testimony on September 7, we at the National 
Center applaud your developing and securing approval, with bipartisan 
support, of your amendment to the FY 2017 Senate Energy and Water 
Appropriations bill to provide $9 million to fund the Tribal Energy 
Loan Guarantee Program. As you note in your question, this $9 million 
could be leveraged into $50-85 million worth of private sector loans 
for energy projects in Indian Country. The National Center is anxious 
to see this $9 million come to fruition as soon as possible in Omnibus 
appropriations for FY 2017, or if not, then in FY 2018.
    As to your questions about working with small businesses working in 
the renewable energy sector in Indian Country, about the impediments to 
deploying renewable energy in Indian Country, and our recommendations 
to Congress to address those impediments, below are responses based on 
my years as Native American Policy Advisor to the Secretary of Energy 
(1999-2001) and National Center Board member (2002-Present):
    1. Access to Capital--Energy projects are capital-intensive, 
especially renewable energy projects (e.g. wind, solar, photovoltaic, 
hydropower, geothermal, etc.). The initiative to fund the Tribal Energy 
Loan Guarantee Program at $9 million would help tribes, tribal 
enterprises and other Native American-owned businesses attract private 
loan financing, in addition to other types of investment, for some 
renewable energy projects. Due to the large amounts of capital needed, 
however, more funding for this program will be necessary. Also well 
worth enhancing is the Indian Loan Guarantee Program of the Department 
of the Interior, currently funded at only about $8 million (credit 
subsidy of about $7 million) to leverage up to about $100 million in 
private sector loans. To date, that guarantee program's aggregate loan 
limit has not been sufficient to consider guarantees for a major energy 
project (although a 2007 loan guarantee, made to an Indian borrower for 
a portfolio of renewable and other energy projects, helped fund a gas 
turbine generator). With a single commercial wind turbine costing about 
$2 million, a wind farm of 50 turbines would consume the entire $100 
million loan limit! Guarantees for funding wind and solar projects of 
modest size might be possible, however, if the program's credit subsidy 
could be increased by $9 million (similar to the program funding in 
your Indian Energy Loan Guarantee amendment), which would increase the 
aggregate loan limit to upwards of $250 million. As tribes look to 
smaller renewable projects that could lower energy costs to their 
tribal members, or that could generate utility rate payments that could 
repay guaranteed loans, it would make great sense to add a modest $9 
million to the existing Indian Loan Guarantee Program--a great program 
that is currently oversubscribed and returns $15 for every $1 invested.

    2. Capacity Building--Energy projects also are capacity-intensive, 
requiring capabilities to obtain required licenses, permits, 
environmental impact statements or assessments, leases, as well as 
financing. Technical and regulatory knowledge is essential, and 
familiarity with the energy industry is invaluable. Tribes need to 
harness, recruit and/or spend time and money to obtain the expertise 
needed to pursue energy projects. Congress made strides in years past 
to authorize the Indian Energy Loan Guarantee Program and the Office of 
Indian Energy to help build tribes' capacity to tackle energy 
development, and this Congress finally came close to appropriating the 
funding request for them. Congress also could be on the brink of 
authorizing more regulatory reforms (e.g., Chairman Barrasso's Indian 
energy bill, S. 209) to reduce regulatory burdens impeding Indian 
energy project development, including by advancing Tribal Energy 
Resource Agreements (TERA) to allow tribes more control in entering 
into energy leases, business agreements and rights-of-way for 
developing energy resources, whether renewable or nonrenewable. Part of 
the TERA approval process involves determining a tribe's ``capacity'' 
to regulate energy development on its tribal lands. So, in addition to 
getting these reforms enacted, it is essential for Congress to approve 
additional funding for FY 2018 for grants for capacity building, 
feasibility studies, and technical assistance, as well as other 
financial assistance that may be available through the Department of 
Energy's Office of Indian Energy Policy and Programs and the Department 
of the Interior's Office of Indian Energy and Economic Development.

    3. Partnership Collaborations--Tribes, tribal enterprises and 
Native American businesses, of all sizes, can benefit greatly through 
partnering with energy industry players, energy advisors, lenders, 
investors, production companies, etc., whose representatives are 
willing to collaborate to develop and deploy renewable energy or other 
energy projects in Indian Country. We also recommend much more 
collaboration among the federal agencies that have, and can play 
larger, roles in assisting tribes and tribal members interested in 
pursuing renewable and other energy projects. Key federal participants 
should be the Departments of Energy, Interior, Agriculture/Rural 
Development, Treasury, Commerce, and the Small Business Administration.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
